<html>
<title> - LEGISLATIVE HEARING ON H.R. 4419, TO FACILITATE AND STREAMLINE THE BUREAU OF RECLAMATION AND BUREAU OF INDIAN AFFAIRS PROCESSES FOR CREATING OR EXPANDING CERTAIN WATER PROJECTS, AND FOR OTHER PURPOSES, ``BUREAU OF RECLAMATION AND BUREAU OF INDIAN AFFAIRS WATER PROJECT STREAMLINING ACT''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







H.R. 4419, ``BUREAU OF RECLAMATION AND BUREAU OF INDIAN AFFAIRS WATER 
                      PROJECT STREAMLINING ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Thursday, November 30, 2017

                               __________

                           Serial No. 115-30

                               __________

       Printed for the use of the Committee on Natural Resources




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-723 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 












                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                 ------                                





















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 30, 2017......................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Eberhart, Urban, Manager, Kittitas Reclamation District, 
      Ellensburg, Washington.....................................    15
        Prepared statement of....................................    17
    Gudes, Scott, Vice President, Government Affairs, American 
      Sportfishing Association, Alexandria, Virginia.............    21
        Prepared statement of....................................    23
        Questions submitted for the record.......................    25
    Mikkelsen, Alan, Deputy Commissioner, Bureau of Reclamation, 
      Washington, DC.............................................    10
        Prepared statement of....................................    11
        Questions submitted for the record.......................    14
    Newhouse, Hon. Dan, a Representative in Congress from the 
      State of Washington........................................     7
        Prepared statement of....................................     8
    O'Toole, Patrick, President, Family Farm Alliance, Savery, 
      Wyoming....................................................    26
        Prepared statement of....................................    27
        Questions submitted for the record.......................    31

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    43
                                     


 
  LEGISLATIVE HEARING ON H.R. 4419, TO FACILITATE AND STREAMLINE THE 
   BUREAU OF RECLAMATION AND BUREAU OF INDIAN AFFAIRS PROCESSES FOR 
 CREATING OR EXPANDING CERTAIN WATER PROJECTS, AND FOR OTHER PURPOSES, 
  ``BUREAU OF RECLAMATION AND BUREAU OF INDIAN AFFAIRS WATER PROJECT 
                           STREAMLINING ACT''

                              ----------                              


                      Thursday, November 30, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:28 p.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, McClintock, LaMalfa, 
Hice, Gianforte; Huffman, Beyer, and Sablan.
    Also present: Representatives Tipton and Newhouse.
    Mr. Lamborn. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on H.R. 4419, sponsored by 
Representative Dan Newhouse of Washington State.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chair. Therefore, I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record if they are submitted to the Subcommittee Clerk by 5:00 
p.m. today.
    Hearing no objection, so ordered.
    I would also ask unanimous consent that the gentleman from 
Colorado, Mr. Tipton, be allowed to join the Subcommittee at 
the dais and participate in the remainder of the hearing.
    Without objection, so ordered.
    And I would ask unanimous consent that the gentleman from 
Washington, Mr. Newhouse, be allowed to join the Subcommittee 
at the dais and participate in the remainder of the hearing.
    Without objection, so ordered.
    We will begin with opening statements, and I will start 
with myself for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Today, we will consider H.R. 4419, the Bureau 
of Reclamation and Bureau of Indian Affairs Water Project 
Streamlining Act, sponsored by our colleague from Washington 
State, Dan Newhouse. This bill further advances this 
Subcommittee's agenda of an ``all-of-the-above'' water supply 
strategy.
    Since its inception more than 100 years ago, the Bureau of 
Reclamation has built more than 600 dams and reservoirs. These 
facilities have allowed the arid West to flourish, because a 
prior generation had the vision and willpower to store water 
when it is available and deliver it during dry times. These 
multi-purpose facilities provide Coloradoans and the West with 
numerous benefits, including recreation, flood control, 
hydropower, and a reliable water supply.
    In addition, these facilities provide cold water for ESA-
listed fish species, as well as other environmental benefits. 
Similarly, BIA Indian irrigation projects are comprised of the 
water infrastructure needed to ensure that tribes have access 
to reliable water supplies for both human consumption and 
irrigation.
    For generations, water users and tribes throughout the West 
have depended on these projects, and they will continue to do 
so for many decades to come. The problem, however, lies in the 
fact that many of these facilities are aging, and it is getting 
increasingly more difficult to build new projects. With few 
exceptions, Reclamation has not built any new large, multi-
purpose dams and reservoirs over the last generation. Coupled 
with rapid population growth and the region's susceptibility to 
droughts and water shortages, as our friends in California know 
very well, our current infrastructure is inadequate to meet a 
growing demand for a finite supply of water.
    For years, this Subcommittee has heard from witnesses how 
regulatory hurdles in the form of never-ending feasibility 
studies and environmental reviews have stifled the development 
of new water projects like the Sites Reservoir in California, 
which at one point had 52 potential reservoir locations being 
considered.
    This bill by Representative Newhouse represents a common-
sense approach to reform and streamline the feasibility study 
process for future water projects to tackle the seemingly 
endless ``paralysis-by-analysis'' status quo. This bill 
requires the Bureau of Reclamation and the Bureau of Indian 
Affairs to become more transparent and accountable in how they 
evaluate future water projects.
    This bill aims to not only promote the development of new 
surface storage, but also paves the way for rural water, Title 
XVI, Indian irrigation, and other Federal water projects, so 
they can get built in a predictable and timely manner.
    Furthermore, it creates a new process that will allow these 
agencies to identify and transmit potential projects to 
Congress to review and authorize. It is based on the precedent 
included in the Water Resources Reform and Development Act, 
which gave the Army Corps of Engineers this process, and which 
passed the House in 2014 with a vote of 412 to 4.
    We must give Reclamation and the BIA similar tools to get 
projects built, and that is exactly what this bill does.
    Before I conclude, I want to make it crystal clear that 
nothing in this bill undercuts public input, NEPA, or any other 
environmental requirements. To the contrary, it allows the 
environmental benefits associated with these projects to be 
developed and put into action more expeditiously. It simply 
requires Federal agencies to work together to adhere to 
reasonable timelines with ample opportunities for extensions, 
so long as they can justify why it is needed.
    This bill provides water users in my state and throughout 
the West with the certainty needed to pursue and invest in 
these projects by breaking down the barriers that have stifled 
new water project development in America.
    We need to get serious about our water future, and this 
bill is a step in the right direction. Let's ensure that future 
generations have access to the same benefits and resources that 
past generations gave to us.
    I want to thank our witnesses for being here today, and I 
look forward to hearing from each one of you.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today, we will consider H.R. 4419, the ``Bureau of Reclamation and 
Bureau of Indian Affairs Water Project Streamlining Act'' sponsored by 
our colleague from Washington State, Dan Newhouse. This bill further 
advances this Subcommittee's agenda of an ``all-of-the-above'' water 
supply strategy.
    Since its inception more than 100 years ago, the Bureau of 
Reclamation has built more than 600 dams and reservoirs. These 
facilities have allowed the arid West to flourish, because a prior 
generation had the vision and willpower to store water when it is 
available and deliver it during dry times. These multi-purpose 
facilities provide Coloradoans and the West with numerous benefits 
including recreation, flood control, hydropower, and a reliable water 
supply. In addition, these facilities provide cold water for ESA-listed 
fish species and other environmental benefits. Similarly, BIA Indian 
irrigation projects are comprised of the water infrastructure needed to 
ensure that tribes have access to reliable water supplies for both 
human consumption and irrigation.
    For generations, water users and tribes throughout the West have 
depended on these projects, and they will continue to do so for decades 
to come. The problem, however, lies in the fact that many of these 
facilities are aging and it is getting increasingly more difficult to 
build new projects. With few exceptions, Reclamation has not built any 
new large, multi-purpose dams and reservoirs over the last generation. 
Coupled with rapid population growth and the region's susceptibility to 
droughts and water shortages, our current infrastructure is inadequate 
to meet a growing demand for a finite supply of water.
    For years, this Subcommittee has heard from witnesses how 
regulatory hurdles in the form of never-ending feasibility studies and 
environmental reviews has stifled the development of new water projects 
like the Sites Reservoir in California which--at one point--had 52 
potential Reservoir locations being considered.
    Mr. Newhouse's bill, H.R. 4419, represents a common-sense approach 
to reform and streamline the feasibility study process for future water 
projects in order to tackle the seemingly endless ``paralysis-by-
analysis'' status quo. This bill requires the Bureau of Reclamation and 
Bureau of Indian Affairs to become more transparent and accountable in 
how they evaluate future water projects.
    This bill aims to not only promote the development of new surface 
storage, but also pave the way for rural water, Title XVI, Indian 
irrigation and other Federal water projects to get built in a 
predictable and timely manner. Furthermore, it creates a new process 
that will allow these agencies to identify and transmit potential 
projects to Congress to review and authorize. It is based on the 
precedent included in the Water Resources Reform and Development Act, 
which gave the Army Corps of Engineers this process, and passed the 
House with a vote of 412 to 4 in 2014. We must give Reclamation and the 
BIA similar tools to get projects built, and that is exactly what this 
bill does.
    Before I conclude, I want to make it crystal clear that nothing in 
this bill undercuts public input, the National Environmental Policy 
Act, or any other environmental requirements. To the contrary, it 
actually allows the environmental benefits associated with these 
projects to be developed and put into action more expeditiously. It 
simply requires Federal agencies to work together, adhere to reasonable 
timelines with ample opportunities for extensions as long as they can 
justify why it is needed.
    This bill provides water users with the certainty needed to pursue 
and invest in these projects by breaking down the barriers that have 
stifled new water project development in America. We need to get 
serious about our water future, and this bill is a step in the right 
direction. Let's ensure that future generations have access to the same 
benefits and resources that past generations gave to us.
    I thank our witnesses for being here today, and I look forward to 
hearing from each of you.

                                 ______
                                 

    Mr. Lamborn. I would now like to recognize the Ranking 
Member, Mr. Huffman, for 5 minutes for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. We are back today 
with a familiar debate about a bill that threatens our Nation's 
fishing industry and attempts to undermine our Nation's bedrock 
environmental laws.
    Folks watching the debate today can be forgiven if they 
have a sense of deja vu, because in 2014, we debated the 
previous version of this bill, H.R. 5412, at length. The bill 
was resoundingly opposed by Democratic members of this 
Committee and by the Obama administration.
    The very next year we saw this bill on the House Floor as 
part of H.R. 2898, once again jammed through the House over the 
strong objection of House Democrats and the Obama 
administration.
    Most recently, we debated provisions of this bill on the 
House Floor in July during Floor debate on H.R. 23, which 
includes a version of this bill. That bill, once again, was 
resoundingly opposed by Democrats and even some Republicans.
    Yet, House Republican leadership stubbornly continues to 
push this bill. Some things, I guess, never change. Another 
thing that is not changing is the reality that this bill is 
dead on arrival in the Senate, and will not become law. This is 
true, despite the fact that House Republican leadership is now 
proposing to combine it with a provision to authorize the 
latest phase of the Yakima Basin Water Enhancement Project, 
which some Democratic Members have been working to advance in 
some form.
    This political stunt is obviously doomed to fail. It is 
like a reverse poison pill, adding a spoonful of sugar in the 
hopes that we will ignore the toxic effects of the rest of the 
bill. The only thing that this will accomplish is to waste 
everyone's time.
    I hope we can move past these political games soon, so that 
people watching today will not have to watch over and over 
again.
    Moving on, I do want to address the claim from supporters 
of this bill that environmental laws like NEPA block new dam 
construction somehow. This claim is false. But you don't have 
to take my word for it. Recently, President Trump was fact 
checked on the claim that projects like Hoover Dam were built 
in 5 years because they did not have to go through years of 
permitting and regulations that current infrastructure projects 
require.
    The Washington Post, which fact checks President Trump 
quite a lot, fact checked that claim and gave it three 
Pinocchios, which stands for significant factual error and/or 
obvious contradictions. They noted that, according to the U.S. 
Government Accountability Office, 95 percent of public 
infrastructure projects are excluded from environmental reviews 
under current law. They further pointed out that it took 35 
years of planning, permitting, negotiating, and preparation to 
build Hoover Dam. And, as has been pointed out by many over the 
years, there is a reality that complicated projects just simply 
take time to plan and finance.
    Also, in 2012, the Congressional Research Service took a 
look at this issue, found that the most likely causes of delay 
for major infrastructure projects are lack of funding and local 
and state permitting issues, not environmental laws, certainly 
not Federal environmental laws.
    Despite these facts, my Republican colleagues continue to 
peddle the fiction that we need to gut our Nation's 
environmental laws to build new dams and other infrastructure. 
I really hope we can move on from this phony debate and get to 
work on real problems.
    One real problem we could address together is the poor 
health of our Nation's fisheries. Most of our Nation's iconic 
fisheries, many at least, are on the brink of extinction, 
causing untold harm to thousands of Americans whose livelihoods 
depend on healthy fish runs, including many of the communities 
I represent.
    Another problem Republicans and Democrats should work on 
together is ending the push to slash the budgets of agencies 
who are charged with doing environmental reviews. These budget 
cuts just make it harder for Federal agencies to expedite 
projects, especially in the small percentage of projects that 
require a full environmental impact statement under NEPA.
    Last, before closing, I want to highlight that H.R. 4419 
actually includes a new and troubling deauthorization 
provision. It directs Interior to deauthorize hundreds of 
millions of dollars' worth of Reclamation projects. The catch 
is that this provision exempts large dam projects from 
deauthorization. This means that a boondoggle project like 
Auburn Dam, which will never be built, will not be 
deauthorized. Instead, water recycling projects that water 
managers around the West actually would like to build will be 
deauthorized.
    Keeping the myth alive that terribly conceived projects 
like Auburn can somehow be built if we just clear away the 
environmental reviews and other obstacles so that you can score 
political points is a bad idea, and it keeps us from talking 
about real solutions that we could be working on together.

    With that, I yield back, Mr. Chairman.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman. Today, we're back to debate a familiar 
bill that threatens our Nation's fishing industry and attempts to 
undermine our Nation's bedrock environmental laws. Folks watching 
today's hearing can be forgiven if they get deja vu.

    In 2014, we debated the previous version of this bill, H.R. 5412, 
at length. That bill was resoundingly opposed by the Democratic members 
of this Committee and the Obama administration.

    The next year, we saw this bill on the House Floor as part of H.R. 
2898, which once again, was jammed through the House over the strong 
objections of House Democrats and the Obama administration.

    Most recently, we debated provisions of this bill on the House 
Floor in July during Floor debate on H.R. 23, which includes a version 
of this bill. That bill, once again, was resoundingly opposed by 
Democrats and some Republicans.

    Yet, House Republican leadership continues to push this bill. Some 
things never change, I guess. Another thing that isn't changing, is the 
reality that this bill is dead on arrival in the Senate and will never 
become law.
    This is true despite the fact that House Republican leadership is 
now proposing to combine this bill with a provision to authorize the 
latest phase of the Yakima Basin Water Enhancement Project, which some 
Democratic Members have been working to advance in some form. This 
cheap political stunt is obviously doomed to fail. It's like a reverse 
``poison pill'': adding a spoonful of sugar in the hopes that we will 
ignore the toxic effects of the rest of the bill. The only thing it 
will accomplish is wasting everyone's time. I hope we can move past 
these petty political games soon, which people watching today are 
rightfully sick of.
    Moving on, I do want to address the claim from supporters of this 
bill that environmental laws like the National Environmental Policy Act 
block new dam construction. This claim, simply put, is false. But you 
don't have to take my word for it.
    Recently, President Trump was fact checked when he claimed that 
projects like the Hoover Dam were ``built in 5 years'' because they 
didn't have to go through the years of permitting and regulations that 
current infrastructure projects require. When independent fact checkers 
at The Washington Post evaluated this claim, they awarded the 
President's claim three Pinocchios, which is the rating for statements 
that include ``significant factual error and/or obvious 
contradictions.''
    The fact checkers noted that, according to the U.S. Government 
Accountability Office, 95 percent of public infrastructure projects are 
excluded from environmental reviews under current law. They further 
pointed out that it took 35 years of planning, permitting, negotiation 
and preparation to ensure that the Hoover Dam was financially feasible 
and had public support. This project took many years despite the 
absence of modern environmental laws because big, complicated projects 
take time to plan and finance.
    Also, a 2012 Congressional Research Service report found the most 
likely causes of delay for major infrastructure projects are lack of 
funding and local and state permitting issues, not environmental laws.
    Despite these facts, my Republican colleagues continue to peddle 
the fiction that we need to gut our Nation's environmental laws to 
build new dams and other infrastructure. I hope we can move on from 
this phony debate and get to work addressing the real problems on the 
ground.
    One real problem we could address together is the poor health of 
our Nation's fisheries. Many of our Nation's iconic fisheries are on 
the brink of extinction, causing untold harm to thousands of Americans 
across our country whose livelihoods depend on healthy fish runs. In my 
own district, some members of the Yurok Tribe have even been driven to 
the brink of suicide, partly because of the demise of salmon 
populations that have formed the backbone of their tradition and 
economy for generations. This is truly heartbreaking.
    Another problem Republicans and Democrats should work on is ending 
the push to slash the budgets of agencies in charge of environmental 
reviews. These budget cuts only make it harder for Federal agencies to 
expedite project reviews, especially in the small percentage of 
projects that appropriately require a full Environmental Impact 
Statement under NEPA.
    Before closing, I want to highlight that H.R. 4419 includes a new 
deauthorization provision that directs Interior to deauthorize hundreds 
of millions of dollars' worth of Reclamation projects. The catch is 
that this provision exempts large dam projects from deauthorization. 
This means that the boondoggle Auburn Dam, which will never be built, 
will not be deauthorized. Instead, water recycling projects that water 
managers actually want will. Keeping the myth alive that terribly 
conceived projects like Auburn can someday be built may score political 
points in some quarters, but the fact is that projects like Auburn 
don't pencil out now and never will.
    In closing, I share the frustration of many watching today's 
hearing. I too am sick of the political games and endless debates about 
the same poison pill bill that has been rejected time and time again. I 
urge my colleagues across the aisle to move on from this so that we can 
work together on real solutions that actually have a chance of becoming 
law.

    Thank you, I yield back.

                                 ______
                                 

    Mr. Lamborn. All right. We now move to our first witness 
panel to hear testimony from Mr. Newhouse on the bill.
    As a reminder, you are limited to 5 minutes, but your 
written statement will appear in full in the hearing record.
    Mr. Newhouse, you are now recognized for 5 minutes.

    STATEMENT OF THE HON. DAN NEWHOUSE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Newhouse. Thank you, Chairman Lamborn and Ranking 
Member Huffman, as well as members of the Subcommittee, for 
inviting me to testify before you today on H.R. 4419, the 
Bureau of Reclamation and Bureau of Indian Affairs Water 
Project Streamlining Act.
    This legislation exhibits years of hard work, 
determination, and certainly collaboration. I would like to 
begin by extending my sincere thanks to Chairman Bishop, his 
staff, as well as Speaker Ryan and his staff, for working with 
me to help move this legislation forward.
    I would also like to thank my colleague, Congressman 
Reichert, for his continued partnership on these efforts. This 
legislation is not only critical for our respective districts 
in Washington State, but also for districts across the Nation, 
particularly those in the West.
    Water is vital for the livelihoods and the prosperity of 
our communities in the western United States. These 
communities, including my constituents in central Washington, 
know all too well the detrimental impacts of facing severe 
droughts and water shortages. In states where the Bureau of 
Reclamation (BOR) and the Bureau of Indian Affairs (BIA) hold 
jurisdiction for the development of water projects, communities 
are left waiting, due to the lack of a streamlined process.
    H.R. 4419 would apply the same streamlined water project 
development process used by the U.S. Army Corps of Engineers 
that was established under the Water Resources Reform 
Development Act of 2014, or WRRDA, to BOR's and BIA's processes 
for surface water, storage, infrastructure, and recycling 
project developments.
    The WRRDA legislation passed through both chambers of 
Congress with overwhelming bipartisan support. My hope is, with 
this legislation, to achieve the same streamlined process for 
BOR and BIA that was developed for the Corps.
    This legislation also authorizes several key water 
development projects across the West, including projects in 
California, Kansas, Montana, and in my home state of 
Washington. One of these is the third phase of a vital effort 
in central Washington, the Yakima River Basin Water Enhancement 
Project (YRBWEP).
    The Yakima River Basin, as you well know, is one of the 
leading agricultural regions in Washington State, as well as 
throughout the country. However, the demand for water in the 
region currently exceeds the resources available, especially 
during times of drought, which have hit the state especially 
hard in these past few years.
    Through years of tough and complex but continued 
negotiations, the Yakima River Basin Plan is a model of 
collaboration that offers a solution to give water users more 
certainty, while also recognizing the concerns of 
conservationists and the various stakeholders in the Yakima 
Basin.
    I would be remiss if I did not acknowledge the 
collaborative group of stakeholders at the core of this vital 
effort. The YRBWEP Workgroup and its Implementation Committee 
are made up of local irrigation districts, environmental 
advocates, local elected officials, tribal leaders, state 
agency officials, conservation organizations, and water storage 
advocates. The fact that this diverse of a group can agree on 
much, let alone negotiate and collaborate on years of 
integrated water project development efforts is nothing short 
of ground-breaking.
    I look forward to hearing the testimony from one of the 
Implementation Committee's own, Mr. Urban Eberhart, and I thank 
the Subcommittee for providing the opportunity for the 
Workgroup to share their model of success with the Nation. It 
is something that I can tell you I am very, very proud of.
    Mr. Chairman, H.R. 4419, the Bureau of Reclamation and 
Bureau of Indian Affairs Water Project Streamlining Act, is a 
common-sense bill that reforms the current cumbersome and 
lengthy processes for water development efforts, and provides a 
mechanism to build new water and infrastructure projects in 
central Washington, as well as across the West. This 
legislation will provide the next major step to addressing our 
water crisis in the West.
    I thank the Subcommittee for allowing me to testify today, 
and I certainly look forward to working with you to get this 
bill signed into law.
    With that, thank you very much, Mr. Chairman.

    [The prepared statement of Mr. Newhouse follows:]
   Prepared Statement of the Hon. Dan Newhouse, a Representative in 
                 Congress from the State of Washington
    Thank you, Chairman Lamborn, Ranking Member Huffman, and members of 
the Subcommittee for inviting me to testify before you today on H.R. 
4419, the ``Bureau of Reclamation and Bureau of Indian Affairs Water 
Project Streamlining Act.''
    This legislation exhibits years of hard work and determination--and 
certainly collaboration--and I'd like to begin by extending my sincere 
thanks to Chairman Bishop and his staff, as well as Speaker Ryan and 
his staff, for working with me to move this legislation forward. I'd 
also like to thank my colleague, Congressman Reichert, for his 
continued partnership on these efforts. This legislation is not only 
critical for our respective districts in Washington State, but for 
districts across the Nation, particularly those in the West.
    Water is vital for the livelihoods and prosperity of communities in 
the western United States. These communities, including my constituents 
in central Washington, know all too well the detrimental impacts of 
facing severe droughts and water shortages. In states where the Bureau 
of Reclamation (BOR) and Bureau of Indian Affairs (BIA) hold 
jurisdiction for the development of water projects, communities are 
left waiting due to the lack of a streamlined process. H.R. 4419 would 
apply the same streamlined water project development process used by 
the U.S. Army Corps of Engineers, established under the ``Water 
Resources Reform Development Act of 2014,'' or WRRDA, to BOR's and 
BIA's processes for surface water, storage, infrastructure, and 
recycling project developments. The WRRDA legislation passed through 
both Chambers of Congress with overwhelming bipartisan support. My hope 
with this legislation is to achieve the same streamlined process for 
BOR and BIA that was developed for the Corps.
    This legislation also authorizes several key water development 
projects across the West, including projects in California, Kansas, 
Montana, and in my home state of Washington. One of these is the third 
phase of a vital effort in central Washington, the Yakima River Basin 
Water Enhancement Project, or YRBWEP. The Yakima River Basin is one of 
the leading agricultural regions in Washington State and throughout the 
country. However, the demand for water in the region currently exceeds 
the resources available, especially during times of drought, which have 
hit the state especially hard in the past few years. Through years of 
tough and complex, but continued negotiations, the Yakima River Basin 
Plan is a model of collaboration that offers a solution to give water 
users more certainty, while also recognizing the concerns of 
conservationists and the various stakeholders in the Yakima Basin.
    I would be remiss if I didn't acknowledge the collaborative group 
of stakeholders at the core of this vital effort. The YRBWEP Workgroup 
and its Implementation Committee are made up of local irrigation 
districts, environmental advocates, local elected officials, tribal 
leaders, state agency officials, conservation organizations, and water 
storage advocates. The fact that this diverse of a group can agree on 
much, let alone negotiate and collaborate on years of integrated water 
project development efforts, is nothing short of ground-breaking. I 
look forward to hearing testimony from one of the Implementation 
Committee's own, Mr. Urban Eberhart, and I thank the Subcommittee for 
providing the opportunity for the Workgroup to share their model of 
success with the Nation.
    Mr. Chairman, H.R. 4419, the ``Bureau of Reclamation and Bureau of 
Indian Affairs Water Project Streamlining Act'' is a common-sense bill 
that reforms the current cumbersome and lengthy processes for water 
development efforts and provides a mechanism to build new water and 
infrastructure projects in central Washington and across the West. This 
legislation will provide the next major step to addressing our water 
crisis in the West. I thank the Subcommittee for allowing me to testify 
today, and look forward to working with you to get this bill signed 
into law.

                                 ______
                                 

    Mr. Lamborn. Thank you for your testimony. You are welcome 
to join us for the remainder of the hearing, but if you need to 
be excused for other obligations, we will understand.
    Mr. Newhouse. I will stay for at least the testimony.
    Mr. Lamborn. Excellent. Now I would ask the second panel of 
witnesses, consisting of four individuals, to come forward. And 
as they are coming forward, I will introduce them.
    Our first witness is Mr. Alan Mikkelsen, Deputy 
Commissioner of the Bureau of Reclamation from Washington, DC; 
our second witness is Mr. Urban Eberhart, Manager of the 
Kittitas Reclamation District from Ellensburg, Washington; our 
third witness is Mr. Scott Gudes, Vice President of Government 
Affairs for the American Sportfishing Association from 
Alexandria, Virginia; and our final witness is Mr. Patrick 
O'Toole, President of the Family Farm Alliance from Savery, 
Wyoming.
    I thank each of you for taking the time to be here. Your 
written testimony will appear in full in the hearing record, so 
I ask that you keep your oral statement to 5 minutes, as 
outlined in our invitation letter to you and under Committee 
Rule 4(a).
    I will also explain how the timing lights work. When you 
are recognized, press the talk button to activate your 
microphone. Once you begin your testimony, the Clerk will start 
the timer and a green light will appear. After 4 minutes, a 
yellow light comes on. At that time, you should begin to wrap 
up. When the red light comes on after 5 minutes, we ask that 
you would conclude at that time.
    Mr. Mikkelsen, you are now recognized for 5 minutes.

  STATEMENT OF ALAN MIKKELSEN, DEPUTY COMMISSIONER, BUREAU OF 
                  RECLAMATION, WASHINGTON, DC

    Mr. Mikkelsen. Good afternoon, Chairman Lamborn, Ranking 
Member Huffman, and members of the Subcommittee. My name is 
Alan Mikkelsen, and I am the Acting Commissioner of the Bureau 
of Reclamation.
    The Department of the Interior supports the goals of H.R. 
4419. Let me summarize the Department's efforts to streamline 
the implementation of NEPA. The Department offers our views in 
consideration of the points of common interest between H.R. 
4419 and Secretarial Order 3355 and Executive Order 13807.
    The Department supports efforts to streamline and expedite 
environmental reviews and approvals for all infrastructure 
projects. Surface water storage projects are an important 
component of our Nation's infrastructure that creates multiple 
benefits, including reliable water supplies, flood control, 
hydropower, and water quality improvements.
    President Trump signed Executive Order 13807, aimed at 
identifying and addressing inefficiencies in the environmental 
review and permitting process for infrastructure projects to 
curtail construction delays, increase costs, and expedite 
infrastructure benefits to our Nation's economy, society, and 
environment.
    Following the release of the President's order, Secretary 
Zinke released Secretarial Order 3355 to streamline the 
environmental review process within Interior. Secretary Zinke's 
order requires bureaus to limit environmental impact statements 
to 150 pages, or 300 pages for unusually complex projects, and 
suggests a target of 1 year for agencies to complete an EIS 
after issuing a NEPA notice of intent.
    The order directs the Deputy Secretary to identify 
impediments to efficient and effective NEPA reviews, best 
practices, and evaluate whether the Department should establish 
additional categorical exclusions or revise current ones.
    The order also requires assistant secretaries to identify 
the potential impediments to reviews for infrastructure, and 
develop action plans to address impediments.
    By focusing on the factors that we can control, reforming 
and streamlining in the environmental review process, we can 
have a positive impact on the speed by which these projects are 
completed.
    Some of the requirements in H.R. 4419 are already 
established in routine practice or agency regulations. We look 
forward to working with the sponsor to develop technical 
amendments to this bill, clarifying duplicative and varying 
standards between current practice and some of the changes 
being implemented pursuant to Secretarial Order 3355.
    Section 8 of the bill would authorize four specific water 
projects. In Phase III of the Yakima Basin Integrated Resource 
Management Plan, the Department remains an ongoing Federal 
participant in this initiative, and continues to seek solutions 
to the long-term imbalance between water supply and demand, and 
provide ecosystem restoration in the Yakima Basin.
    With the Equus Beds Project, the Department reiterates its 
support for the city of Wichita's goals of conserving and 
improving water supplies. With the Musselshell-Judith rural 
water system in Montana, the Department reiterates its support 
for the goals of encouraging a vibrant rural economy, and 
ensuring safe and reliable sources of drinking water.
    With respect to the Shasta Lake water resources 
investigation, surface water storage projects are an important 
component of our Nation's infrastructure that create multiple 
benefits, including reliable water supplies, flood control, 
hydropower, and water quality improvements. In California, 
surface water storage is a crucial component to addressing the 
growing demands on water supplies. Reclamation continues to 
look for stakeholder partners to engage with us in advancing 
this project. If such partners are identified and Congress 
authorizes the project, we are prepared to advance this 
project.
    Finally, Section 9 provides a mechanism for inactive 
projects to be deauthorized with a need for congressional 
action on a project-by-project basis. We recognize the 
sponsor's interest in deauthorizing inactive Reclamation 
projects, and believe Congress plays an important role in 
providing the Department direction as to whether to deauthorize 
projects Congress determines no longer remain viable.
    In conclusion, Mr. Chairman, the Department looks forward 
to working with this Subcommittee and our sister agencies to 
achieve the goals of this legislation. We applaud any 
consideration of streamlining, and hope that we can work in 
unison to identify other ways to reduce unnecessary and time-
consuming analysis and associated legislation.
    Thank you.

    [The prepared statement of Mr. Mikkelsen follows:]
 Prepared Statement of Alan Mikkelsen, Deputy Commissioner, Bureau of 
              Reclamation, U.S. Department of the Interior
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, my name is Alan Mikkelsen, and I am the Deputy 
Commissioner at the Bureau of Reclamation (Reclamation) at the 
Department of the Interior (Department or Interior). Thank you for the 
opportunity to present testimony on behalf of the Department regarding 
H.R. 4419, the Bureau of Reclamation and Bureau of Indian Affairs Water 
Project Streamlining Act, which aims to streamline the process of 
studying, planning, designing and constructing water projects in the 
arid West. While H.R. 4419 includes Bureau of Indian Affairs' projects 
in the streamlining provisions, I intend to focus on the Bureau of 
Reclamation's views on the bill. As the Bureau of Reclamation is 
committed to sound, efficient, and streamlined environmental review 
processes in order to avoid unnecessary construction delays and 
increased costs of water projects, the Department supports the goals of 
H.R. 4419.
                      ongoing streamlining efforts
    Before I discuss specific provisions of H.R. 4419, I would like to 
briefly summarize the Department's ongoing efforts to streamline the 
implementation of the National Environmental Policy Act (NEPA) under 
Secretarial Order 3355 and Executive Order 13807. The Department's 
streamlining process was considered as we prepared the Department's 
statement on the bill before the Subcommittee today, and the Department 
offers its views in consideration of the points of common interest 
between H.R. 4419 and Secretarial Order 3355 and Executive Order 13807.
    The Department supports efforts to streamline and expedite, in a 
manner consistent with law, environmental reviews, and approvals for 
all infrastructure projects. Water projects in particular are an 
important component of our Nation's infrastructure that can create 
multiple benefits, including reliable water supplies, flood control, 
hydropower, and water quality improvements.

    On August 15, 2017, President Trump signed Executive Order 13807 
aimed at identifying and addressing inefficiencies in the environmental 
review and permitting process for infrastructure projects, in order to 
curtail construction delays and increased costs, and expedite 
infrastructure benefits to our Nation's economy, society and 
environment. The Executive Order directs the Council on Environmental 
Quality (CEQ) to undertake a number of actions, including developing a 
list of actions it can take to enhance and modernize the Federal 
environmental review and authorization process. On September 14, 2017, 
CEQ published a notice in the Federal Register announcing an initial 
list of actions it will take to enhance and modernize the Federal 
environmental review and authorization process for infrastructure 
projects. These include actions to develop a ``One Federal Decision'' 
framework for infrastructure project approval, improving the process 
for preparing efficient and timely environmental reviews under NEPA, 
and convening an inter-agency working group to review NEPA implementing 
regulations.

    Following the release of Executive Order 13807, the Department 
released Secretarial Order 3355 to immediately take steps to streamline 
the environmental review process within the Department's offices and 
bureaus and implement Executive Order 13807. Secretarial Order 3355 
requires bureaus within Interior to limit environmental impact 
statements (EIS) to 150 pages, or 300 pages for ``unusually complex 
projects.'' The order suggests a ``target'' of 1 year for agencies to 
complete an EIS after issuing a notice of intent under the NEPA. The 
order directs the Deputy Secretary to identify impediments to efficient 
and effective NEPA reviews, best practices, and evaluate whether the 
Department should establish additional categorical exclusions or revise 
current ones. The order also requires Assistant Secretaries to identify 
potential impediments to efficient and effective reviews for 
infrastructure and develop actions plans to address impediments. In 
implementing Secretarial Order 3355, the Department aims to eliminate 
unnecessary detail and paperwork, and replace it with sound decision 
making on an informed understanding of environmental consequences.

    Existing review processes are more than adequate to identify 
projects that are not feasible. However, far too often the 
environmental review process, and concomitant litigation, is used to 
unnecessarily obstruct, delay, and increase the costs of well-
justified, highly merited projects. Executive Order 13807 and 
Secretarial Order 3355 are intended to cut through this red tape and 
help advance these worthy projects. By focusing on factors we can 
control--reform and streamlining in the environmental review process--
we can have a positive impact on the speed by which these projects are 
completed.

    The Department notes that there are numerous factors that can slow 
down the progress of projects. These include identifying local cost-
share partners and markets for water, risks associated with project 
geology, downstream impacts, and litigation over environmental review. 
Secretarial Order 3355 aims to move the Department away from a 
regulatory regime that too often results in the cost of preparing 
environmental review documentation surpassing the costs of a proposed 
project. Years and years of litigation and numerous rewrites of 
environmental review documentation does not benefit interested parties, 
and moves us away from a coordinated, predictable, and transparent 
approval process. H.R. 4419 in conjunction with the ongoing 
streamlining efforts by the Administration has the potential to 
minimize the role of litigation in infrastructure and natural resources 
decisions.

                        h.r. 4419 (sections 2-7)

    H.R. 4419 sets forth provisions governing feasibility studies for 
water projects initiated under Reclamation law, with an aim toward 
accelerating the approval of major infrastructure projects. A project 
study initiated after enactment of the bill must: (1) result in the 
completion of a final feasibility report within 3 years; (2) have a 
maximum Federal cost of $3 million; and (3) ensure that personnel from 
the local project area, region, and headquarters levels of the Bureau 
of Reclamation concurrently conduct the required review. The bill sets 
forth factors for extending timelines for complex projects.
    The bill contains several other provisions of note, which require 
the Department to:

    <bullet> annually prepare a list of all studies that do not have 
            adequate funding for study completion;

    <bullet> develop and implement a coordinated environmental review 
            process for the development of such studies;

    <bullet> identify early all Federal, state, and local government 
            agencies and Indian tribes that may have jurisdiction and 
            that may be required to act, which the Federal lead agency 
            shall invite to become participating or cooperating 
            agencies;

    <bullet> issue guidance regarding the use of programmatic 
            approaches to carry out the environmental review process; 
            and

    <bullet> establish an electronic database and issue reporting 
            requirements to make publicly available the status and 
            progress with respect to compliance with applicable NEPA 
            requirements and other action required for a project study.

    The bill sets forth responsibilities in the environmental review 
process, including a plan for coordinating public and agency 
participation; working with cooperating agencies to resolve issues that 
could delay process completion or result in the denial of any approval; 
and establishing, upon request, memoranda of agreement with the project 
sponsor, Indian tribes, and state and local governments to carry out 
the early coordination activities. Further, the bill requires a Federal 
lead agency to serve in that capacity for the entirety of all non-
Federal projects that will be integrated into a larger system owned, 
operated, or administered by Reclamation. It directs Interior, upon 
determining that a project can be expedited by a non-Federal sponsor 
and that there is a demonstrable Federal interest in expediting the 
project, to advance it as a non-Federal project; requires a Federal 
jurisdictional agency to complete any required approval or decision for 
the environmental review process on an expeditious basis; and, as 
referenced below, provides for a reduction of funds for agencies that 
fail to render decisions by a specified deadline.
    Under Sections 3 and 6 of the bill, Interior must develop and 
submit reports to Congress on topics such as the status of 
implementation and the costs and benefits of proposed project studies. 
The Department would also be required to report on any project study 
that was expedited under this bill. The Department would like to work 
with the Committee and bill sponsor to ensure Section 5(i)(5)(B)(i)(II) 
does not unintentionally impact other activities in Reclamation's 
budget, foster litigation, or cause unforeseen delays by requiring 
financial penalties on Federal agencies found out of compliance with 
the decision deadlines in H.R. 4419.
    Some of the requirements in H.R. 4419 are already established in 
routine practice or agency regulations, and CEQ has developed guidance 
on use of programmatic reviews. To avoid duplication between current 
practice and desired goals, or inconsistencies with definitions, the 
Department looks forward to working with the Subcommittee to develop 
technical amendments to this bill to clarify duplicative and varying 
standards between current practice, and some of the changes being 
implemented pursuant to Secretarial Order 3355.
                         project authorizations
    Section 8 of H.R. 4419 would authorize four Reclamation projects to 
be carried out in accordance with the feasibility reports listed in the 
chart. The legislation authorizes construction of Phase III of the 
Yakima River Basin Water Enhancement Project, Equus Beds Division of 
the Wichita Project, Musselshell-Judith Rural Water System, and the 
Shasta Lake Water Resources Investigation. My statement will speak to 
each of those projects separately.
    In regards to the authorization of Phase IIII of the Yakima Basin 
Integrated Resource Management Plan (Integrated Plan), the Department 
remains an ongoing Federal participant in this initiative, and 
continues to support the ongoing coordination with our state partners 
and all Basin interests to find solutions to the long-term imbalance 
between water supply and demand and provide ecosystem restoration in 
the Yakima Basin.
    With regards to the Equus Beds Project, the Department reiterates 
its support for the city of Wichita's goals of conserving and improving 
water supplies. Specifically, the Equus Beds Aquifer Storage and 
Recovery Project would provide a safe and reliable water source to 
Wichita and the surrounding area, while protecting the water quality of 
the Equus Beds aquifer. Reclamation signed a Record of Decision on 
January 19, 2010, selecting the project as the preferred alternative.
    In regards to the Musselshell-Judith Rural Water System, the 
Department reiterates its support for the goals of encouraging a 
vibrant rural economy and ensuring safe, reliable sources of drinking 
water in Montana and North Dakota. As we testified on June 14, 2017, 
the Department found the proposed project to be feasible, and met the 
broad criteria of the program.
    With respect to the Shasta Lake Water Resources Investigation, 
surface water storage projects are an important component of our 
Nation's infrastructure that can create multiple benefits, including 
reliable water supplies, flood control, hydropower, and water quality 
improvements. In California, cost-effective surface water storage is a 
crucial component to addressing the growing demands on California water 
supplies. The Shasta Enlargement Final Feasibility Report and 
Environmental Impact Statement (EIS) was transmitted to Congress in 
July 2015. The EIS identified a preferred alternative (Comprehensive 
Plan 4A). Reclamation continues to look for stakeholder partners to 
engage with us in cost-sharing and advancing this project. If such 
partners are identified, certain state and local issues are resolved, 
and Congress authorizes the project, then Reclamation is willing to 
work with those partners to advance the project.
 deauthorization of inactive reclamation project and programs (section 
                                   9)
    Section 9 would direct the Secretary of the Interior to compile a 
list of congressionally-authorized inactive Reclamation programs or 
projects that are no longer under active consideration for construction 
due to cost, lack of local support, feasibility, or other reasons. 
Second, this provision provides a mechanism for inactive projects to be 
deauthorized without the need for congressional action on project-by-
project basis. The language mirrors provisions enacted in Section 6001 
of the Water Resources Reform and Development Act (WRRDA) of 2014 (P.L. 
113-121).
    Reclamation recognizes the sponsors' interest in deauthorizing 
inactive Reclamation projects when projects lack local support and 
available funding, or are otherwise determined to be inactive or 
irrelevant. Reclamation believes Congress plays an important role in 
establishing appropriate guidance for the Department on matters under 
its jurisdiction. This includes congressional direction as to whether 
or not to deauthorize projects Congress determines no longer remain 
viable.
                               conclusion
    In conclusion, Mr. Chairman, the Department of the Interior looks 
forward to working with this Subcommittee and our sister agencies to 
achieve the goals of this legislation. We applaud any consideration of 
streamlining and hope we can work in unison to identify other ways to 
reduce unnecessary and time-consuming analysis and its concomitant 
litigation.

                                 ______
                                 

Questions Submitted for the Record by Rep. Jody Hice to Alan Mikkelsen, 
            Deputy Commissioner, U.S. Bureau of Reclamation

    Question 1. Mr. Mikkelsen, I am concerned when I hear from my 
colleagues out West that shovel-ready projects are stalled by seemingly 
endless studies. As you testified, Mr. O'Toole, ``. . . sometimes [the 
existing] process is used as a barrier to the planning, design and 
construction of new water storage projects.'' We've seen in Georgia, 
how delays in construction can increase project costs exponentially. 
Are the provisions in the bill that streamline the feasibility study 
process necessary, or is the ability simply to authorize new projects 
sufficient?

    Answer. Before a project can become shovel-ready, it is necessary 
under the Federal Water Resources Planning process to complete a 
feasibility study. This is required to ensure that from a design, 
technical and engineering perspective the project is feasible and will, 
when constructed, meet the expected water and power supply needs of the 
benefiting community. It is also important to ensure that the 
identified economic benefits are accurate, will be realized by the 
design of the project, and will exceed the project's costs. In 
addition, it is important that the local community and the taxpayers of 
the United States are able to bear the construction and operational 
costs' of the project. This process, which is similar across many 
Federal agencies, is important to protect the long-term interest of the 
project beneficiaries and the taxpayers. H.R. 4419 would provide 
streamlining to the feasibility study process by requiring studies to 
be completed in a more timely and efficient manner. Finally, once 
feasibility studies or project construction is authorized by Congress, 
Reclamation depends upon the relevant non-Federal cost share and 
congressional appropriations to undertake and complete these activities 
in a timely manner.

    Question 2. Mr. Mikkelsen, H.R. 4419 would certainly increase water 
supply for human needs as we can begin fixing our degrading water 
infrastructure. Do you also see broader environmental benefits to this 
increased water supply?

    Answer. Reclamation projects are generally authorized by Congress 
for multiple purposes including irrigation, municipal and industrial 
uses as well as to provide recreational and fish and wildlife benefits. 
It is our expectation that the streamlined process envisioned by H.R. 
4419 intends to accelerate the pace of completing the feasibility 
studies and project completion--which would include any and all of the 
authorized benefits that are associated with the project.

    Question 3. Mr. Mikkelsen, From what we've heard today, the current 
challenges associated with modernizing existing and constructing new 
water storage projects must be a nightmare for strategic planning. How 
do the provisions of H.R. 4419 help the Bureau engage in long-term 
planning?

    Answer. Expediting the feasibility study process will permit the 
Bureau's planning resources to address additional water storage 
projects simply by spending less time on the analysis of each. Having a 
defined period for completion of a feasibility analysis makes managing 
the overall planning portfolio more efficient. H.R. 4419 will do little 
to address issues with prioritizing the planning portfolio, but will 
add parameters on feasibility study period length which should help 
with overall long-term planning.

    Question 4. Mr. Mikkelsen, How will coordinating environmental 
reviews and streamlining the feasibility study process help the Bureau 
better serve water users?

    Answer. Water users would be better served through increased 
coordination and establishment of environmental reviews and feasibility 
study processes that could result in timelier project implementation. 
Improvements to front-end coordination and established processes for 
the over-all effort would likely result in: common understanding of the 
process, requirements, and expectations of entities involved; 
development of more robust schedules providing key decision points and 
deliverables; clear identification of data needs and necessary studies; 
greater certainty of timing for engagement of users; reduced 
environmental review and feasibility study costs; and increased 
transparency. The structured process improves the certainty in project 
timing so water users can more easily plan their financial and resource 
commitments associated with project implementation.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Eberhart, you are now recognized for 5 minutes.

  STATEMENT OF URBAN EBERHART, MANAGER, KITTITAS RECLAMATION 
                DISTRICT, ELLENSBURG, WASHINGTON

    Mr. Eberhart. Thank you, Chairman Lamborn, Ranking Member 
Huffman, and members of the Subcommittee. Thank you for the 
opportunity to testify on H.R. 4419, the Bureau of Reclamation 
and Bureau of Indian Affairs Water Streamlining Act.
    My name is Urban Eberhart, and I am the Secretary-Manager 
of the Kittitas Reclamation District, an irrigation district 
serving 60,000 acres of prime farmland in the Yakima River 
Basin in the vicinity of Ellensburg, Washington. I am also a 
farmer in the Yakima River Basin. I was raised on our family 
farm near Ellensburg, and am still growing apples, pears, and 
hay in the Badger Pocket area of the Kittitas Valley.
    I am here today on behalf of the Yakima Basin Working Group 
in support of this Subcommittee's efforts to congressionally 
authorize the Bureau of Reclamation to continue to partner with 
the state of Washington and the working group in implementing 
the initial development phase of the Yakima Basin Integrated 
Plan Phase III of the Yakima River Basin Water Enhancement 
Project at Reclamation.
    Over the last 9 years, this unique and diverse 
collaboration has emerged in the Yakima Basin and is focused on 
developing a collective vision for the future of water in the 
watershed, a future where there is water for farming, water for 
fish, and water for families, even when we have years of less-
than-adequate water supplies. Congressionally authorizing this 
initial development phase of the integrated plan is the next 
vital step forward in making that future possible.
    The Yakima Basin Working Group supports the concepts 
provided by H.R. 4419 to authorize the initial development 
phase of the integrated plan. The working group is tremendously 
grateful to Representative Dan Newhouse and Representative Dave 
Reichert for their tireless work in supporting the Yakima Basin 
Integrated Plan, and for introducing this legislation. They 
understood how important the integrated plan is in the Yakima 
River Basin, the state of Washington, and the Yakima Nation.
    Through the efforts of the working group, we have seen 
substantial progress in meeting the plan's goals through 
partnerships and cooperation, when in the past we were in 
conflict. We are encouraged by the fact that both Democratic 
and Republican administrations have supported this 
collaboration and have looked to the integrated plan and our 
diverse coalition as a potential model for future water 
management in the West.
    The Yakima River Basin is one of the most productive, 
concentrated, irrigated agriculture areas in the Nation, 
producing more than $4.5 billion in crops and food processing 
sales, and supporting more than 44,000 jobs annually.
    The Yakima River Basin is also home to significant fish and 
wildlife resources, including anadromous steelhead and salmon 
runs. These fish runs are part of the important recreational 
and tribal resources in our basin. The Yakima Nation has relied 
on these fish and wildlife resources for generations. These 
ancient fish runs have been in decline during the mid-20th 
centuries, and were a focus of contention over water supplies 
and water management in the basin for many years.
    Recent efforts to improve fish habitat through significant 
investments in water conservation, improved water management, 
water marketing, habitat restoration, and fish passage have 
seen some success. In fact, Reclamation estimates that, on 
average, approximately 130,000 acre-feet per year has been 
conserved since the 1990s. But additional new investments in 
water conservation, water storage, and fish passage are still 
needed, which the integrated plan supports.
    Frequent droughts over the past several decades have 
demonstrated the vulnerability of the Yakima Basin's water 
supply. Since 1992, there have been six low-water years, where 
proratable irrigation districts, those subject to curtailment 
in dry years, received far less than their full allocation of 
water. During these droughts, the proratable irrigation 
districts served by Reclamation only received between 37 and 47 
percent of their usual water supply.
    The integrated plan will add an additional 170,000 acre-
feet of water conservation savings through Federal, state, and 
local partnerships. The proratable irrigation districts in the 
Yakima Basin are planning to finance, build, and operate the 
first major water supply project in the integrated plan 
themselves, estimated to cost about $200 million. The state of 
Washington has approved bipartisan legislation to provide up to 
50 percent of the cost to implement the integrated plan. The 
state has made major investments in the integrated plan, 
totaling $173.3 million since 2013.
    As you can see, the integrated plan leverages Federal, 
state, and local partnerships and funding to accomplish what 
one single stakeholder could not.
    In summary, the Yakima Basin Integrated Plan is a balanced 
approach, agreed upon by an incredibly diverse coalition of 
farmers, environmental, and outdoor groups, local, state, and 
Federal governments, and the Yakima Nation. It is designed to 
sustainably meet the needs of water users in abundant salmon 
and steelhead runs, improve habitat for fish and wildlife, and 
allow our communities to grow.
    We look forward to continuing to work with you and 
Representatives Newhouse and Reichert on this legislation. We 
believe it is essential that we come together and craft an 
approach that can pass Congress and be enacted into law.
    Thank you.

    [The prepared statement of Mr. Eberhart follows:]
   Prepared Statement of Urban Eberhart, Secretary/Manager, Kittitas 
 Reclamation District and Farmer from Ellensburg, Washington on Behalf 
                   of The Yakima Basin Working Group
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, I would like to thank you for the opportunity to testify 
on H.R. 4419, the Bureau of Reclamation and Bureau of Indian Affairs 
Water Project Streamlining Act. I am here today on behalf of the Yakima 
Basin Working Group in support of this Subcommittee's efforts to 
congressionally authorize the Federal Government to continue to be our 
partner in the Yakima Basin Integrated Plan, and especially those 
Federal portions which are known as Yakima River Basin Water 
Enhancement Project Phase III (YRBWEP Phase III).
    Over the last 7 years, a unique and diverse collaboration has 
emerged in the Yakima Basin focused on developing a collective vision 
for the future of water in the Yakima Basin; a future where there is 
water for farming, water for anadromous fish, and water for families 
even when we have years of less than adequate water supplies. 
Congressionally authorizing the Initial Development Phase of the 
Integrated Plan is the next vital step forward in making that future 
possible.
    We are tremendously grateful to Representative Dan Newhouse and 
Representative Dave Reichert for their tireless work in supporting the 
Yakima Basin Integrated Plan and for introducing this legislation. They 
understand how important the Integrated Plan is to the Yakima River 
Basin, the state of Washington, and the Yakama Nation, and have been 
looking for ways to move the authorization for the Integrated Plan 
forward through the House and Senate, then on to the President's desk.
    H.R. 4419 would accomplish many things, including authorizing parts 
of the Integrated Plan that need additional Federal authorities. The 
Yakima Basin Working Group supports the concepts provided by H.R. 4419 
to authorize the Initial Development Phase of the Integrated Plan, and 
we look forward to working with this Committee and Representatives 
Newhouse and Reichert to ensure that the Yakima portions of the bill 
accomplish the goals and phasing set out by the Yakima Basin Working 
Group and the Bureau of Reclamation, including the authorization of the 
Initial Development Phase of the Plan. By working together, we have 
seen amazing progress on meeting the Plan's goals through partnerships 
and cooperation, when in the past we were in conflict. We are buoyed by 
the fact that both Democratic and Republican administrations have 
lauded this collaboration and have looked to the Integrated Plan and 
the diverse coalition that developed and is supporting the Plan as a 
potential model for future water management in the West.
    My name is Urban Eberhart and I am the Secretary/Manager of the 
Kittitas Reclamation District (KRD), an irrigation district serving 
60,000 acres of prime farmland in the Yakima River Basin in the 
vicinity of Ellensburg, Washington. I am also a farmer in the Yakima 
River Basin. I was raised on our family farm near Ellensburg and am 
still growing apples, pears, and hay in the Badger Pocket area of the 
Kittitas Valley.
    I have been following and working on the Yakima River Basin Water 
Enhancement Project (YRBWEP) ever since I went to my first Yakima water 
enhancement meeting with my father back in 1979, the year Congress 
authorized a feasibility study to address the water resource needs of 
the Yakima River Basin; the Act of December 12, 1979 (93 Stat. 1241, 
Public Law 96-162). An outgrowth of this study was the implementation 
of Phase I (fish ladders and fish screens) and Phase II (water 
conservation and other measures) of the YRBWEP.
    I was an active participant in the development of the 1994 YRBWEP 
Phase II legislation. I have also been intimately involved in the 
development of the Yakima River Basin Integrated Plan, a forward 
looking holistic approach to dealing with the expected problems in the 
Basin to help meet all water demands over the next several decades. I 
support the enactment of legislation authorizing Phase III of the 
YRBWEP and beginning the first 10 years implementation (known as the 
Initial Development Phase) of the Integrated Plan.
    When most people think of Washington State, they visualize a place 
with dark green forests, high mountains and constant rain. While that 
perception is at least partially accurate, the rain forests on our 
Olympic Peninsula receive on average about 140 inches of rainfall a 
year, much of the eastern half of the state lays in the rain shadow of 
the Cascade Mountains, and has a semi-arid climate. The total annual 
precipitation in some portions of eastern Washington is measured in 
single digits.
    However, Washington State, like many other parts of the West, has 
suffered from extreme drought conditions for extended periods of time, 
especially in the past several years. These conditions create great 
challenges for our farmers, for our fisheries, and for the families of 
Washington State. But throughout our Basin a number of efforts are 
underway to prepare for and improve the response to these new and, what 
we expect to be, more common conditions.
    The Yakima Basin is an approximately 6,000 square mile watershed in 
south central Washington State. It supports a population of about 
360,000 people and is home to the approximately 10,000 member Yakama 
Nation. The Yakima Basin contributes $4.5 billion annually and 44,300 
jobs to the agricultural economy of the state of Washington. 
Recreation, much water dependent, adds 14,200 jobs and $1.2 billion to 
the economy. All told, Yakima's water dependent economy adds $13.1 
billion to the economy and 96,000 jobs.
    The Federal Bureau of Reclamation's (Reclamation) Yakima Irrigation 
Project (Project) in the Yakima River Basin includes seven divisions: 
Storage, Kittitas, Tieton, Sunnyside, Roza, Kennewick, and Wapato 
serving irrigable lands totaling approximately 464,000 acres. The 
Wapato Division is operated by the Bureau of Indian Affairs, but 
receives most of its water supply from the Yakima Project for 
irrigation of 136,000 acres of land. Over 45,000 acres not included in 
the seven divisions are irrigated by private interests under water 
supply contracts with the Bureau of Reclamation. The six water storage 
dams and reservoirs on the Project are Bumping Lake, Clear Creek, 
Tieton, Cle Elum, Kachess, and Keechelus. Other Project features 
include five diversion dams, canals, laterals, pumping plants, drains, 
three hydropower plants, and transmission lines.
    The Yakima River Basin is one of the most productive concentrated 
agricultural areas in the Nation. Yakima County ranks first among all 
counties of the United States in the production of apples, mint, and 
hops. Principal crops grown in the Yakima Basin include fruit, 
vegetables, forage, hops, grapes, and mint, with many highly productive 
dairies, fruit packaging plants, wineries, and other related businesses 
and industries tied to our Basin's bountiful harvests. As previously 
stated, these industries in the Basin alone annually produce more than 
$4.5 billion in crops and food processing sales while supporting more 
than 44,300 jobs and exporting over $1.3 billion through the Ports of 
Seattle and Tacoma every year. A reliable Yakima Basin water supply is 
a critical requirement for these industries.
    The Yakima River Basin is also home to significant fish and 
wildlife resources, including an anadromous fish population of 
steelhead as well as bull trout that are both protected under the 
Endangered Species Act (ESA), and salmon runs. These fish runs are part 
of the important recreational and tribal resources in our basin. 
Historically, it is important to recognize that the Yakima Basin was 
the second largest producer of salmon and steelhead runs in the entire 
Columbia River system. Those runs numbered close to 800,000 salmon and 
steelhead each year. The Yakama Nation has relied on these fish and 
wildlife resources for generations. These ancient fish runs declined 
precipitously during the mid-20th century, and were a focus of 
contention over water supplies and water management in the basin for 
many years. Recent efforts to improve these fish runs through 
investments in water conservation, improved water management, habitat 
restoration, and fish passage have seen some marked success. But 
additional investments are still needed, which the Integrated Plan 
supports.
    Since 1905, when the state granted rights for all unappropriated 
surface water in the Yakima Basin to Reclamation, surface water flows 
in the Yakima Basin have been managed by Reclamation. Reclamation 
operates reservoirs with a total capacity of about 1,100,000 acre-feet, 
which is about one-third of the average annual runoff in the Yakima 
Basin. The Yakima Basin is heavily dependent on east-slope Cascade 
Range snowpack to supply water to the semi-arid lower basin during the 
summer months.
    Water law in Washington State is based on the doctrine of prior 
appropriation, the basic premise of which is water use priority is 
determined based on ``first in time, first in right.'' Water users in 
the Yakima Basin are a combination of the pre-1905 senior surface water 
right holders, direct customers of Reclamation served water under 
Reclamation's 1905 state water right, a small number of post-1905 
junior surface water right holders, and groundwater right holders, 
mostly with post-1905 priority dates. Of course, all of this must be 
overlaid with the Yakama Nation's treaty right to water for fisheries, 
irrigation and other purposes and their seniority which would obviously 
pre-date 1905.
    Management of water in the Yakima Basin has historically been 
highly contentious and marked by protracted legal battles. The surface 
water resources of the Yakima Basin are over-appropriated, and a state 
court adjudication of those water rights has been ongoing since 1977. 
The state closed the Yakima Basin to additional groundwater rights in 
the 1990s. Recently, the U.S. Geological Survey concluded that the 
Yakima Basin's groundwater aquifers are in continuity with surface 
waters. Based on that conclusion, it is likely that most of the post-
1905 ground water rights, upon which most of the Yakima Basin's 
municipalities depend, will be determined to be junior to Reclamation's 
1905 water right and, therefore, subject to curtailment in water short 
years.
    Frequent droughts over the past several decades have demonstrated 
the vulnerability of the Yakima Basin's water supplies. Since 1992, 
there have been six low water availability years (1992, 1993, 1994, 
2001, 2005, and 2015) where ``proratable'' irrigation districts 
(subject to curtailment in dry years) in the Yakima Basin received far 
less than their full allocation of water. During droughts in 1994, 
2001, 2005, and 2015, these ``proratable'' irrigation districts served 
by Reclamation received only between 37 and 47 percent of their usual 
water supply.
    Instream flows and aquatic resources of the Yakima Basin have also 
continued to suffer. A combination of out-of-basin and in-basin 
factors, including diminished stream flows and lack of fish passage at 
existing reservoirs, have combined to drastically reduce the numbers of 
salmon and steelhead. Runs of salmon and steelhead that, as previously 
noted, once numbered at least 800,000 fish declined to about 9,000 fish 
by the 1990s. Sockeye, Coho, and summer Chinook salmon stocks have all 
been extirpated; although efforts are underway, led by the Yakama 
Nation, to reintroduce and restore stocks of those species. The Yakima 
Basin's steelhead and bull trout are Endangered Species Act listed 
threatened species.
    Since 2009, the state of Washington's Department of Ecology--Office 
of Columbia River and the Bureau of Reclamation have been collaborating 
with the Yakama Nation and Yakima Basin stakeholders to formulate a 
comprehensive strategy to address critical resource needs. That 
collaboration focused on expanding the work of the 1979 Federal Yakima 
River Basin Water Enhancement Project (YRBWEP) and the 1994 
Congressional Amendments that created Phase II of YRBWEP. That strategy 
took shape in mid-2011 when consensus was reached on the Yakima Basin 
Integrated Plan.
    The Federal parts of this Integrated Plan are being proposed as 
Phase III of YRBWEP. Development of the Integrated Plan was facilitated 
by additional Federal support resulting from the Yakima Basin being 
selected as the recipient of one of Reclamation's first Basin Study 
grants under their WaterSMART Program.
    The Integrated Plan proposes major ecological restoration of the 
Yakima Basin through a number of bold measures. The Integrated Plan 
provides for construction of fish passage at all major in-basin 
reservoirs to open high basin spawning and rearing areas that have been 
blocked for a century. It will provide substantial mainstem and 
tributary habitat enhancements. Substantial portions of the upper 
watershed will be restored as habitat for both terrestrial and aquatic 
species. In addition, the plan provides for operational modifications 
to improve operational efficiency and flexibility.
    The Integrated Plan also calls for substantial improvements in 
water supply for both instream and out-of-stream uses. About one-half 
of eastern Washington's out-of-stream water needs and one-third of our 
unmet instream flow needs are in the Yakima Basin. Water supply 
improvements will come in several different forms. Efficiency of 
existing use of water will be improved through reducing barriers to the 
transfer of water between willing buyers and willing sellers. Municipal 
and agricultural conservation efforts will be enhanced. For example, 
the 1994 YRBWEP Phase II efforts called for 160,000 acre-feet of 
conservation, of which 126,000 acre-feet has been completed or is in 
process. The Integrated Plan adds an additional 170,000 acre-feet of 
water conservation savings much of which will be in the upper basin and 
tributaries where conservation was not supported by YRBWEP Phase II. 
Studies are also underway to better understand the potential role of 
aquifer storage in providing passive recharge to the mainstem and 
tributaries of the Yakima River in targeted locations.
    However, the objectives of the Integrated Plan cannot be met 
without significant improvements in surface water storage. The Office 
of Columbia River and Reclamation have determined, based on an analysis 
of water supply needs, that supplementing the Yakima Basin's existing 
1,100,000 acre-feet of water storage capacity with an additional 
450,000 acre-feet of capacity in the form of modified and new surface 
storage facilities will be needed to provide:

    <bullet> Drought relief and resiliency to existing irrigators in 
            the Yakima Basin;

    <bullet> Secure water supplies for our municipalities with junior 
            water rights and to meet their future needs, and

    <bullet> Adequate water for fish out-migration and pulse flows in 
            all years.

    It is a testimonial to how hard all sides worked and compromised in 
negotiating the Integrated Plan that we have environmentalists, fishery 
advocates, and Yakama Nation support for a plan that includes new water 
storage. Even casual observers of western water wars will know how 
unusual that is.
    The importance of expanding water storage capacity is underscored 
by hydrologic modeling conducted by the University of Washington and 
the Federal River Management Joint Operating Committee that predicts 
substantial reductions in snow pack depth and duration as we move 
toward mid-century. The most recent 2015 drought in the Yakima Basin, 
had near normal precipitation but little snow accumulation, resulting 
in 47 percent supply for the 1905 water rights, and a loss of 
agricultural production of $118.5 million in just three of the 
irrigation districts most reliant on Reclamation supplies This 
``snowpack drought''--near normal precipitation but little snowpack 
water storage--reflects expected future conditions. The Integrated Plan 
recognizes that the only effective means of offsetting snowpack 
reductions in the Yakima Basin are improving floodplain aquifer storage 
potential and increasing surface storage capacity. Sensitivity analysis 
modeling of the Integrated Plan indicate that, at full Integrated Plan 
build-out, about 500,000 acre-feet more water would be available under 
mid-century drought conditions than was available in the most recent 
drought.
    In the past, Reclamation has born the cost of constructing water 
supply facilities in the Yakima Basin, with the Project repaying these 
costs back to the Federal Government over time. Today, that financing 
model is not what the Yakima Basin stakeholders are relying on. The 
proratable irrigation districts in the Yakima Basin are planning to 
finance, build and operate the first major water supply project in the 
Integrated Plan, estimated to cost about $200 million. They will make 
this large non-Federal investment to build new drought emergency water 
supply infrastructure as well as new water conservation improvements in 
coordination with Reclamation and Washington State under the Integrated 
Plan.
    Conservation is often suggested as a substitute for water storage; 
however, there are severe limitations to the role of conservation as a 
source of additional water supply. As noted previously, the Integrated 
Plan proposes to accomplish an additional 170,000 acre-feet of 
irrigation conservation savings beyond that authorized by YRBWEP Phase 
II. Further, there are other conservation efforts by irrigation 
districts, on-farm investments, and municipal conservation programs 
that all result in more efficient water application and saved water. 
The result of investments in conservation at all levels is a steady 
decrease in the amount of water Reclamation is called upon to deliver. 
Reclamation now in normal years delivers, on average, approximately 
130,000 acre-feet per year less than it did prior to the 1990s.
    Those savings have provided valuable flow improvements in targeted 
stream reaches resulting in improved conditions for fish. However, it 
must be remembered that most conservation efforts focus on reducing the 
amount of water that leaks or spills from conveyance systems (for 
example, canals or ditches) or from irrigation practices that result in 
more water being applied than is needed by the crops being grown. The 
leaked water returns through runoff or through groundwater to the river 
at a point downstream of where it was diverted. We refer to this as 
``return flow.'' Along the Yakima River mainstem, return flows rejoin 
the river within days or a few weeks after diversion and contribute to 
downstream river flows.
    If through conservation measures, the leakage or over-application 
of water is reduced or eliminated, the amount of water diverted can be 
reduced accordingly. As part of the YRBWEP, irrigation districts agree 
to leave a portion of their conserved water ``instream'' for additional 
flow. Those diversion savings add more flow to the river, but only 
between the point of diversion and the point at which return flows 
previously rejoined the river. Below the return flow point, the only 
residual changes to the river are the timing of these flows and some 
water quality improvement. If the conserved water described in the 
preceding example was used for some other out-of-stream purpose, flow 
below the return flow point would be permanently diminished. The surest 
way to dry up the river would be to employ such a practice on a 
widespread basis.
    Water marketing has a long and positive history in the Yakima 
Basin, and has been particularly active in drought years. Under the 
Integrated Plan, the Department of Ecology, the irrigation districts, 
fishery managers and others are working on ways to overcome impediments 
to water transfers while still respecting ecological concerns, state 
law and district concerns.
    The goal of the Integrated Plan is not to expand irrigated 
agriculture in the Yakima Basin, with the exception of the tribal 
Wapato Irrigation Project, where some irrigable reservation land is not 
yet served with water supplies. Instead the goal is to firm up and make 
more reliable water supplies for fish, farms and the people of the 
Basin.
    With bipartisan support, the state of Washington approved 
legislation in 2013 that authorized the Department of Ecology to 
provide up to 50 percent of the cost to implement the Integrated Plan 
in conjunction with Reclamation and in collaboration with the Yakama 
Nation, other state and Federal agencies, local governments, and basin 
stakeholders. In addition to establishing the policy framework at the 
state level for implementation of the Integrated Plan, the Governor and 
the Legislature have approved significant capital investments, totaling 
$173.3 million from 2013 through mid-2017, in on-the-ground projects 
that meet the multiple goals of the Integrated Plan. We look forward to 
working with this Committee, the Congress, and the Administration to 
continue the ongoing Federal/state/local partnership in this special 
and powerful collaborative effort by leveraging Federal, state and 
local funding in implementing the Integrated Plan.
    In summary, the Yakima Basin Integrated Plan is a balanced approach 
agreed upon by an incredibly diverse coalition of irrigators, farmers, 
environmental and outdoor enthusiast groups, local, state and Federal 
governments, and the Yakama Nation. It is designed to address the need 
for economic and environmental sustainability, meeting the needs of 
water users, while restoring abundant salmon and steelhead runs and 
improving habitat for fish and wildlife. To that end, we look forward 
to working through some additional suggestions with Committee staff and 
our congressional delegation. We believe it is essential that we come 
together and craft an approach that can make it through both Chambers 
of Congress with support both in the Yakima Basin and beyond.
    We appreciate the Committee's consideration of this legislation and 
look forward to working with you as you consider it merits.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Gudes, you are now recognized for 5 minutes.

 STATEMENT OF SCOTT GUDES, VICE PRESIDENT, GOVERNMENT AFFAIRS, 
    AMERICAN SPORTFISHING ASSOCIATION, ALEXANDRIA, VIRGINIA

    Mr. Gudes. Chairman Lamborn, Ranking Member Huffman, and 
members of the Subcommittee, at the very outset I would like to 
thank this Committee, the Subcommittee and its members, and 
your outstanding professional staff for the work that you do on 
a number of pieces of legislation that have to do with the 
sportsmen community, and we truly thank you.
    The American Sportfishing Association is the U.S. 
sportfishing industry's trade association. We are made up of 
over 800 companies that manufacture and sell fishing tackle and 
related apparel and gear, and I could go on about all the 
things we do.
    Our members include a number of businesses and conservation 
groups that are in Pacific Coast states that depend on the 
healthy runs of salmon. These are small businesses. Many are 
family owned, salt-of-the-earth entrepreneurs. Salmon fishing 
is key to the success and continuation of their businesses, 
companies like Pro-Troll, which is based in the Bay Area, 
Lamiglas Rods on the Columbia River, Yakima Baits in Granger, 
Washington, and companies far outside the West Coast that 
depend on the fishing. For example, St. Croix Rods in northern 
Wisconsin, Wright-McGill Eagle Claw near your district, they 
are based in Denver, right off the highway there.
    Today's hearing is an issue in which recreational and 
commercial fishermen and businesses share a common ground. You 
probably don't hear that as much here, but this is one where we 
have the same perspectives. The perspectives I provide you 
today are shared by the Golden Gate Salmon Association and the 
commercial group, Pacific Coast Federation of Fishermen's 
Associations.
    The Committee has my written testimony; I just want to 
highlight a few points.
    One, the construction and operation of Federal dams on 
western rivers, such as the Sacramento, San Joaquin, and 
Columbia, has actually had severe impacts over time on salmon 
runs, and consequently, recreational and commercial fishing 
jobs and the communities that rely on them.
    California's Central Valley experts tell us that dam 
construction has resulted in the loss of more than 90 percent 
of historic spawning habitat. Water projects, exacerbated by 
the drought, have had a severe impact. During the past 10 
years, the average annual catch by the sportfishing charter 
community was over 150,000 fish. In 2016, this charter catch 
declined to 36,000 fish.
    For the commercial fishing industry in California, the 10-
year annual catch was 350,000 or more fish. In 2016, the catch 
declined to 55,000 fish. During our previous drought in 2008 
and 2009, salmon fishing was actually illegal, it was shut down 
completely. Before the 2008 closure, in California alone, the 
salmon fishery supported an economy worth $1.5 billion 
annually, and 23,000 jobs.
    Salmon are special. They are different than many of the 
species of fish that this Committee deals with. They are 
anadromous, they spend their early lives in fresh water, they 
live most of their lives out in the ocean, and then they return 
to spawn. Unlike a lot of the stocks that you deal with, we 
actually have a very good handle on how many fish are coming in 
and how many have been harvested. It is kind of a different 
issue than you often discuss here.
    But the key to restoring a thriving California West Coast 
salmon fishery is that first part of their life, the ability to 
get out, to get out to the bay, to get outside the Golden Gate. 
A hundred percent of the fish that don't do that, don't make 
it, don't become part of the stock that comes back.
    As my testimony notes, it is probably not surprising to 
some of you, our groups do not support the expansion of large 
dams. We are very concerned that the shortening or dictating of 
the review process will not be in our interest, the salmon 
fishing interest, or the fishing industry's interest.
    I also note that responsibility for salmon is shared by 
various Federal agencies, including NOAA, which plays a very 
key role. Their science is very important, and they actually 
have an office in Sacramento that deals with Central Valley 
salmon and does the supporting science.
    Pacific salmon represent one of the most iconic, historic, 
recreational, and commercial fisheries in the Nation. In my 
written statement, I made a comparison to wild Atlantic salmon. 
California is the southern part of the range of Pacific salmon. 
New York and Connecticut were the southern end of the range of 
Atlantic salmon. They no longer exist. They have vanished from 
southern New England.
    I was wrong in my testimony that I said they have vanished 
entirely. They have not. They still exist in Maine. They are 
listed under the Endangered Species Act. I was wrong in that 
there are actually up to 1,000 fish, total, that come back into 
Maine.
    So, we want to make sure that what has happened on the East 
Coast with Atlantic salmon--and the closest thing to a salmon 
is a salmon, it is the same issues about water, about access to 
habitat--we want to make sure that that is not repeated, and 
that California becomes, if you will, the West Coast example of 
that.
    Thank you for the opportunity to appear today. Again, we 
really appreciate the role in this, and what this Committee 
does.
    Thank you.

    [The prepared statement of Mr. Gudes follows:]
   Prepared Statement of Scott Gudes, Vice President for Government 
               Affairs, American Sportfishing Association
    Chairman Lamborn, Ranking Member Huffman and members of the 
Subcommittee, thank you for this opportunity to testify before you 
today. My name is Scott Gudes. I serve as the Vice President for 
Government Affairs for the American Sportfishing Association (ASA). ASA 
is the U.S. sportfishing industry's trade association. The association 
is made up of over 800 companies that manufacture and sell fishing 
tackle (rods, reels, terminal tackle, electronics, etc.), and related 
apparel and gear, as well as sportsmen and conservation groups, state 
fishery representatives, and the sportfishing media. Our membership 
includes a number of businesses, and conservation groups in Pacific 
Coast states that depend on healthy runs of Pacific salmon.
    The perspectives I provide to you today are shared by Golden Gate 
Salmon Association (GGSA) and the Pacific Coast Federation of 
Fishermen's Associations (PCFFA). PCFFA is composed of West Coast 
commercial fishing interests, while GGSA consists of California 
recreational and commercial fishing interests, as well as other members 
of the salmon fishing industry. My testimony today will focus on issues 
related to salmon runs, as well as the recreational and commercial 
fisheries, jobs and communities that depend on these remarkable fish. 
This is an issue on which recreational and commercial fishermen and 
businesses share common ground.
                               background
    The construction and operation of Federal dams on western rivers, 
such as the Sacramento, San Joaquin, Columbia and many others, have 
resulted in severe impacts to salmon runs, and consequently 
recreational and commercial fishing, fishing jobs, and the communities 
that rely on these salmon runs. In California's Central Valley--a 
watershed that I will return to in my testimony--dam construction has 
resulted in the loss of more than 90 percent of historical spawning 
habitat. In addition, the resulting alteration in water flow has 
contributed to the elimination of 98 percent of Central Valley riparian 
and floodplain habitat.\1\ This loss of spawning and rearing habitat, 
and needed flows, have played a dramatic role in the decline of salmon, 
including the Endangered Species Act listing of Central Valley winter 
and spring run Chinook salmon and have resulted in a great deal of harm 
to commercial and recreational fishing.
---------------------------------------------------------------------------
    \1\ http://www.westcoast.fisheries.noaa.gov/publications/
recovery_planning/salmon_steelhead/domains/california_central_valley/
cv_chin_stlhd_r_plan_fs_071614.pdf.
---------------------------------------------------------------------------
    For example, because of the impacts of water projects, in 
combination with a drought, California's salmon fishing industry was 
entirely shut down from 2008 to 2009. Simply put, for these 2 years, it 
was illegal to catch salmon in California. Because the Sacramento River 
is the most important salmon run south of the Columbia River, this 
decline led to dramatic impacts in dozens of California ports, and 
additional impacts in Oregon, and Washington, where significant numbers 
of Sacramento River fish are caught.
    In addition to leading to restrictions on an historic fishery that 
is highly valued by the public, the decline of salmon represents an 
economic tragedy. Before the 2008-2009 closure, in California alone, 
the salmon fishery supported an economy worth $1.5 billion annually and 
23,000 jobs. If California salmon runs were restored to historic 
levels, estimates are that these numbers would rise to $5.7 billion 
annually and 94,000 jobs.
    Unfortunately, in the past several years, because of water 
management impacts and exacerbated by a long drought, salmon numbers 
have declined again with significant impacts on fishing seasons and 
harvest for the commercial and recreational and commercial fishing 
industries.
    The recreational and commercial ocean fishery is highly regulated, 
to ensure that an adequate number of adult salmon return to spawn every 
year. Salmon are anadromous, and spend their early lives in fresh water 
and then much of their life span in the ocean. As a result, the key to 
restoring a thriving California and West Coast salmon fishery is how we 
manage and restore California's Central Valley rivers.
    Pacific salmon represent one of the most iconic and historic 
recreational and commercial fisheries in the Nation. Their wild 
Atlantic salmon cousins have largely vanished in the United States due 
to river obstructions, pollution and habitat degradation. To ensure 
that Pacific salmon stocks remain viable and don't follow the history 
of Atlantic salmon, great care should be taken to restore salmon 
habitat and ensure that water management actions in the Central 
Valley--and elsewhere--do not worsen conditions.
                      concerns regarding h.r. 4419
    While we appreciate the bill's intentions to increase water 
availability, ASA and our partners in the region have several concerns 
regarding H.R. 4419.
    First, Section 8 would authorize a proposed raise of Shasta Dam on 
California's Sacramento River. This proposed project was analyzed in a 
draft U.S. Fish and Wildlife Coordination Act report dated November 24, 
2014. This document states that the preferred alternative ``will result 
in additional losses of salmonid rearing and riparian habitat.'' It 
then analyzes several serious impacts on salmon that could result from 
the proposed dam raise, including: reduced juvenile rearing capacity, 
reduce access to juvenile habitat in floodplains and flood bypasses, 
degraded riparian habitat, degraded habitat in the Sacramento-San 
Joaquin Delta, and decreased flushing flows that allow juvenile salmon 
to pass safely downstream, through the Delta and to the ocean. The 
Service concluded that it ``is unable to support the adoption of any of 
the proposed action alternatives.''
    In addition, California law prohibits the issuance of any state 
permits for a Shasta Dam raise. This, from our perspective, is 
appropriate, given the potential impacts on salmon. As a result, ASA, 
GGSA and PCFFA do not support a Federal authorization to raise Shasta 
Dam. Indeed, the final feasibility report for the proposed Shasta Raise 
concluded that the Secretary of the Interior could not provide a 
recommendation to proceed with the proposed Shasta Dam raise.\2\
---------------------------------------------------------------------------
    \2\ https://www.usbr.gov/mp/slwri/ (Page 9-1).
---------------------------------------------------------------------------
    It is important to note that one of the objectives of the proposed 
Shasta raise is to increase the survival of anadromous fish. Clearly, 
this project would fail to achieve that objective. However, without 
thorough analysis of this project, the potential impacts identified by 
the Fish and Wildlife Service might have been overlooked. This brings 
me to our next concern.
    Second, the bill would limit the analysis and review of new 
proposed surface storage projects. Future environmental reviews and 
feasibility studies would be limited by a schedule, such as a 3-year 
deadline and a $3 million cap on Federal cost for feasibility studies.
    Surface storage projects can cost billions of dollars and can 
result in many complex impacts. Salmon fishermen experience these 
impacts every year. We believe that, in many cases, such deadlines and 
a cap on costs may well result in inadequate and incomplete analyses--
and further harm to salmon and the fishing industry.
    Third, Section 5(g) would give the Secretary of the Interior the 
authority to issue a list of all data needed to carry out the 
environmental review process for new surface storage projects. As a 
result, this provision would give the Secretary of the Interior the 
authority to limit the data used by another Department or agency in 
evaluating a proposed storage project. In the case of salmon, much of 
the Federal expertise lies in the National Marine Fisheries Service, 
commonly referred to as ``NOAA Fisheries.'' NOAA plays the lead or a 
key role in the management of harvest, habitat restoration, review of 
hydro projects, and salmon hatcheries. It is the agency that provides 
much of the government's science, including ocean conditions and 
trends, in support of salmon management. NOAA, through congressional 
appropriations, provides funding to support Fishery Management Council 
science and staffing.
    We believe that NOAA Fisheries also should be allowed to determine 
the data that are most appropriate for inclusion in its review of 
proposed projects that could determine the survival and health of 
Pacific salmon.
                               conclusion
    The health and sustainability of Pacific salmon are extremely 
important to both the West Coast recreational and commercial fishing 
industries, and the local communities and people that depend on them. 
The availability of adequate flows of cold fresh water, especially at 
key points in the salmonid life cycle--is critically important. It is 
certainly true that the construction of large dams has slowed 
significantly in recent decades. However, ASA, GGSA and PCFFA believe 
that the reason for this trend is not the environmental review process. 
Rather, we believe that it results from many factors including: the 
number of existing dams; the lack of available additional water; the 
shortage of promising new dam sites; the high cost of proposed surface 
storage projects; the difficulty of raising local cost share 
contributions; and the rise of alternative water management strategies, 
ranging from groundwater storage and floodplain restoration to water 
use efficiency and water recycling. We hope the Subcommittee will focus 
attention on these win-win strategies that can benefit salmon, generate 
new water supplies and reduce flood risk.

    Again, thank you for this opportunity to testify today.

                                 ______
                                 

 Question Submitted for the Record by Rep. Huffman to Mr. Scott Gudes, 
                   American Sportfishing Association
    Question 1. Can the Klamath River's Iron Gate Hatchery continue 
operating if Iron Gate Dam is removed?

    Answer. Thank you for your question.
    Congressman Huffman, in a previous answer during my testimony, I 
noted that the production and survival of hatchery salmon is extremely 
important to both the sport and commercial fishing industries in 
California and the Northwest. Hatcheries are one way to help provide 
some mitigation or relief from the impacts of dams. The Iron Gate 
hatchery has been helpful to salmon runs on the Klamath River watershed 
in Northern California and Oregon. As you know, the Iron Gate Dam is 
scheduled to be removed as part of the Klamath River hydroelectric 
settlement agreement, which will restore water and access to habitat 
for salmon.
    The short answer to your question is ``yes.'' My understanding is 
that this settlement agreement provides for the continued operation of 
the hatchery. PacificCorp agreed to fund 100 percent of hatchery 
operations and maintenance necessary to fulfill annual mitigation 
objectives developed by the California Department of Fish and Wildlife 
in consultation with NOAA Fisheries. This includes funding the Iron 
Gate Hatchery facility.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. O'Toole, you are now recognized for 5 minutes.

STATEMENT OF PATRICK O'TOOLE, PRESIDENT, FAMILY FARM ALLIANCE, 
                        SAVERY, WYOMING

    Mr. O'Toole. Thank you, Chairman Lamborn and Ranking Member 
Huffman. I can't tell you how much I appreciate the ability to 
visit with you all. If you would allow me, I would like to 
introduce my grandson, Seamus. Would you stand up?
    Seamus is the sixth generation on our ranch that was 
established before there was a Colorado-Wyoming line in 1881. 
Our river, the Little Snake River, goes across the state line 
12 times, so we are integrated at the headwaters of the 
Colorado River with the state of Colorado and the state of 
Wyoming.
    As you all might know, the governor of Wyoming began a 
process called ``Ten in Ten'' a few years ago, 10 reservoirs in 
10 years. We are now at 13, and I can tell you from personal 
experience our valley, the Little Snake River Valley, was part 
of what was called the hit of dams in the West back in 1972. 
Two reservoirs, one in Colorado and one in Wyoming, 100,000 
acre-feet, were supposed to be built.
    So, here we are, how many years later? We have built 25 
percent of that 100,000 acres, and it was a spectacular benefit 
to our community. Unfortunately, it took 14 years to permit.
    I was on the select water committee in the state of Wyoming 
at the time. I will tell you that I personally attended many of 
the hearings and the process to go through, and it was a 
double, multi-circle firing squad, where we went from agency to 
agency to agency. And Seamus and I came out here because we 
think this is about as important a thing for the West as could 
possibly happen.
    Storage in today's world--the last 2 years on our ranch we 
had 125 percent snowpacks. At the end of the summer, we did not 
have the flows that we should have had. We are seeing 
incredible storms in some places. In California this year, if 
we had had the Sites Reservoir, we could have gathered all that 
water that came in those incredible storms.
    What we need is a process so that we can begin to get these 
things permitted under the Federal process.
    On our ranch, Seamus' job--we have six grandkids, everybody 
is taking on different responsibilities--he will begin this 
summer to learn to be a fishing guide, because we think that is 
going to be part of our future. But it is only going to happen 
if we have storage. And what happened at the end of the 14 
years that I participated in was we built half of the reservoir 
that the demand existed for.
    Not only do we have to have a facilitated system, we have 
to have a system that plans for the future, because right now 
the system is we will give you what is permitted on that day. 
Well, we learn, if we are looking proactively and spending 
state money particularly, like we are doing in Wyoming, you 
have to plan for what is going to be there when the dam is 
built.
    So, we did 14 years of permitting, 2 years of construction, 
and for the lower valley it was a tremendous benefit. We are 
now looking at another higher reservoir in our valley.
    I also serve on what is called the Yampa roundtable. In 
Colorado, Governor Hickenlooper put together roundtables for 
all the river basins. The Little Snake River that I live on 
goes into the Yampa, the Yampa to the Green, the Green to the 
Colorado. On the Yampa roundtable, I attended a meeting of the 
consultants that had been hired to look at the Yampa Basin. 
Every single drainage in the watershed is looking at a storage 
project, because we all know what is coming.
    So, part of it is, what you have done here is give some 
opportunity and some optimism to people that were going to be 
able to do storage. People were discouraged because of the 
process that I went through. They didn't go forward, the states 
didn't go forward with what they knew was the right thing to 
do, so they will lose 30 years, maybe.
    In California, I visited the San Luis Reservoir Bureau of 
Rec office, where they had a 50-year plan for California. It 
was not done. The population went from 19 million to almost 40 
million in that 50-year period.
    So, what we are looking at is how do we plan for the 
future, and the genius of these attempts to make that process 
work better. I can tell you that NEPA, the process of going 
through it, is not going to be sidelined. I have done many, 
many collaborative processes in my career. What you have is 
what some people have always wanted, to have everybody a 
participant. That is what is happening. You are not going to do 
a process without every participant being involved in it. That 
has been my experience, and that is exactly what happens.
    As President of the Family Farm Alliance, I will tell you 
that in talks I am giving we are dismantling one of the 
greatest achievements of western civilization, and that is the 
American agricultural system. We are slowly dismantling that 
system because we are taking the water away, we are taking the 
land away, and we are discouraging the next generation from 
being farmers and ranchers.
    This is one of the most optimistic opportunities I have 
seen in a long time, and thank you for your participation in 
it.

    [The prepared statement of Mr. O'Toole follows:]
 Prepared Statement of Patrick O'Toole, President, Family Farm Alliance
    Chairman Lamborn, Ranking Member Huffman and members of the 
Subcommittee, thank you for the opportunity to appear before you to 
discuss H.R. 4419, the ``Bureau of Reclamation and Bureau of Indian 
Affairs Water Project Streamlining Act.'' This legislation provides a 
critical first step toward addressing current regulatory and 
bureaucratic challenges that many times will delay or even halt the 
development of new water supply enhancement projects in the western 
United States. My name is Patrick O'Toole, and I serve as the President 
of the Family Farm Alliance. The Alliance advocates for family farmers, 
ranchers, irrigation districts, and allied industries in 17 western 
states. The Alliance is focused on one mission--To ensure the 
availability of reliable, affordable irrigation water supplies to 
western farmers and ranchers.
    The Family Farm Alliance supports ``The Bureau of Reclamation and 
Bureau of Indian Affairs Water Project Streamlining Act'' and 
encourages the Subcommittee to move the legislation forward to 
enactment.
       personal background and experience with water development
    I have served on the Family Farm Alliance's Board of Directors 
since 1998 and was named as the organization's president in 2005. I am 
also a former member of Wyoming's House of Representatives. I presently 
serve on the Advisory Committee for AGree, a national agricultural 
policy group, and work closely with the Intermountain Waterfowl Joint 
Venture and Partners for Conservation.
    My family has a strong background in irrigated agriculture and our 
125-year-old ranch--located near Savery, Wyoming--produces cattle, 
sheep and hay. My family and Ladder Ranch were the recipients of the 
distinguished 2014 Wyoming Leopold Environmental Stewardship Award.
    Our ranch straddles the Wyoming-Colorado border and has long 
afforded me the opportunity to view some unique water issues, 
firsthand. I have testified before this Subcommittee several times, and 
have previously highlighted the permitting challenges I have 
encountered in building the Little Snake Supplemental Irrigation Supply 
Project (High Savery Project) in Wyoming. That project was built in 
less than 2 years, but took more than 14 years to permit. However, that 
reservoir is now delivering water that benefits multiple uses.
    importance of storage projects to western irrigated agriculture
    The drought of the past few years, and the flooding earlier this 
year in some areas of the West has illustrated the importance of 
planning for the construction of new storage projects in water 
management plans. A reasonable storage development regime would help 
farmers and agriculture obtain necessary supplies and improve 
management of the available resource. Agricultural water is seen by 
some as a ``reservoir'' to eventually satisfy demands from other 
competing uses, including municipal growth and the environment. In many 
places in the West, agricultural water is not being protected for 
future agricultural uses. It is essential to be producing more food, 
not less, for a world population projected to be more than 10 billion 
people by the year 2050. Increased food production will need more 
certainty in future water supplies, not less.
    Irrigated agriculture not only provides a $172 billion annual boost 
to our economy, it also provides important habitat for western 
waterfowl and other wildlife, and its open spaces are treasured by 
citizens throughout the West. Family Farm Alliance members rely on the 
traditional water and power infrastructure built over the last century 
to deliver irrigation water supplies vital to their farming operations. 
Our membership has been advocating for new investments in water storage 
for over 20 years, and we have provided specific recommendations to 
Congress and the White House on how to streamline restrictive Federal 
regulations to help turn these projects into a reality. While water 
conservation and water transfers are important tools for improving 
management of increasingly scarce water resources, our members believe 
these demand-management actions must be balanced with supply 
enhancement measures that provide the proper mix of long-term solutions 
for the varying specific circumstances in the West.
          other important reasons for water supply enhancement
    Regardless of cause, climate variability is one critical factor 
that underscores the need to develop new water storage projects in the 
western United States. There are several reports that suggest existing 
reservoirs will not be capable of safely accepting the earlier, more 
intense snowmelt that has been predicted for many western watersheds. A 
report released in 2006 by the state of California predicted that 
variable hydrologic cycles could result in a drastic drop in the 
state's drinking and farm water supplies, as well as more frequent 
winter flooding. The report suggested that the state may experience a 
smaller snowpack and more wintertime runoff. This means more 
floodwaters to manage in winter, followed by less springtime snowmelt 
to provide crucial water supplies for cities, agriculture and the 
environment. Water resources experts in other parts of the West also 
realize that new surface water storage projects may be necessary to 
capture more snowmelt or rainfall under such conditions.
    Some western water managers believe there may likely be a ``rush'' 
to re-operate existing multi-purpose water storage projects to restore 
some of the lost flood protection resulting from the changed hydrology. 
These projects were designed to provide a certain level of flood 
protection benefits that will be reduced because of more ``rain-induced 
flood'' events. There will be a call to reduce carryover storage and to 
operate the reservoirs with more flood control space and less storage 
space. If this is done, it will even further reduce the availability 
and reliability of agricultural and urban water supplies from existing 
water supply infrastructure.
    Further, many water users are located upstream of existing 
reservoirs. These users must then rely on direct or natural flows that 
typically have been primarily fueled by springtime snowmelt. In the 
Rocky Mountain West, snowmelt traditionally occurs over several months 
during the onset of the irrigation season (usually April through June), 
and thus the snowpack is an important component of water storage. Since 
irrigation water conveyance systems are never 100 percent efficient, 
water is diverted, conveyed and spread on the land in excess of the net 
irrigation demand. This surplus returns to the stream and recharges 
groundwater aquifers, which augments water supplies for all users 
located downstream from the original diversion. It also supports 
valuable habitat used by migrating waterfowl. If more runoff were to 
occur during winter before the onset of the irrigation season, this 
would impact water supply availability to these producers by decreasing 
the storage capacity usually provided by the tempered melting of the 
snowpack. It would also impact the utility associated with the return 
flows from their irrigation practices. As the snowpack is reduced by 
early melting, this reduced storage capacity must be replaced by new 
surface water storage just to stay on par with our currently available 
water supplies.
    There is growing recognition among policy makers that water supply 
enhancement projects must be included in the tool box used to tackle 
western water challenges. In addition to the water project bills that 
are moving in this Congress, states like California and Wyoming are 
dedicating millions of dollars to the development of new water storage 
projects. My home state of Wyoming has at least 10 small water storage 
facilities that the state wants to complete as soon as possible. These 
projects are sponsored by local entities, support local beneficial 
uses, and provide flexibility for future uses of stored water. The goal 
of Wyoming's ``Ten in Ten'' initiative is the completion of a minimum 
of 10 small (2,000 to 20,000 acre-feet) reservoirs in the next 10 
years. All projects will move through the processes developed by the 
Legislature, the Select Water Committee and Wyoming Water Development 
Commission. This initiative provides executive support and agency 
planning for all appropriate actions to accelerate the completion of 
projects.
    The call for more water storage only makes sense when one considers 
the paradigm shift of more conservative water operations coupled with 
the added water supplies necessary to meet demands for water that, in 
many basins in the West, have simply outgrown the existing supply. In 
2015, the Alliance released a report that provides detailed answers to 
20 frequently asked questions about new water storage projects. I would 
be happy to provide hard copies of this report to the Subcommittee, or, 
a PDF version can be downloaded at www.familyfarmalliance.org.
             challenges with developing new water projects
    As you are all aware, actually developing new storage projects is 
much easier said than done. For many reasons--political, economic and 
social--the construction of traditional surface water storage projects 
is undertaken on a much more limited basis than in decades past. Even 
if Federal authorization and funding is secured for a new storage 
project, the existing procedures for developing additional water 
supplies can make project approval incredibly burdensome.
    Clearly, the existing procedures for developing additional water 
supplies need to be refined to make project approval less burdensome. 
By the time project applicants approach Federal agencies for permits to 
construct multi-million-dollar projects they have already invested 
extensive financial resources toward analyzing project alternatives to 
determine which project is best suited to their budgetary constraints. 
However, current procedure dictates that Federal agencies formulate 
another list of project alternatives which the applicant must assess, 
comparing potential impacts with the preferred alternative. Some of 
these alternatives may often conflict with state law or are simply not 
implementable in the first place; yet valuable resources are required 
to be expended to further study these additional alternatives in the 
Federal permitting process. In fact, we believe sometimes this process 
is used as a barrier to the planning, design and construction of new 
water storage projects. We appreciate that this Subcommittee had 
explored opportunities and introduced legislation to improve the 
accountability of this process and reduce the costs to the project 
applicant.
                         overview of h.r. 4419
    Not long ago, some were predicting that no new surface water 
storage would be built in this country. Those predictions now may not 
come to pass. Senator John Barrasso and Representative Tom McClintock 
have proposed bills to facilitate permitting of new water storage 
projects, and now Representative Newhouse has offered up H.R. 4419, a 
variation of H.R. 875; legislation which was introduced earlier in this 
Congress, with Family Farm Alliance support.
    The Bureau of Reclamation and Bureau of Indian Affairs Water 
Project Streamlining Act requires the Bureau of Reclamation 
(Reclamation) and Bureau of Indian Affairs (BIA) to accelerate studies 
and provide more accountability in the agency's process to study the 
feasibility of new and or expanded surface water storage. The 
legislation would provide the same streamlined water project 
development process for Reclamation surface water storage projects that 
the Water Resources Reform and Development Act of 2014 gave to the U.S. 
Army Corps of Engineers. That latter law was passed in both the House 
and Senate on a bipartisan basis and was signed into law by President 
Obama. The goal of H.R. 4419 is to reform the current cumbersome, 
lengthy process so that there is a mechanism to build new surface water 
storage projects in the West. Major provisions of the bill:

    Section 3 requires future feasibility studies for Reclamation or 
BIA projects to be completed with 3 years after the date of initiation 
and have a maximum Federal cost of $3 million. The Section provides for 
a maximum 7-year extension of that time and cost if the Interior 
Secretary provides a detailed justification to the non-Federal project 
sponsor and the Congress.

    Section 4 requires the Interior Secretary to expedite the 
completion of any ongoing feasibility studies initiated before the date 
of enactment. If the Secretary determines that the project is justified 
in a completed report, he/she shall proceed to proceed to pre-
construction planning, engineering and design of the project.

    Section 5 directs the Interior Secretary to develop and implement a 
coordinated environmental review process with Reclamation and the non-
Federal project sponsor as lead agencies for expedited environmental 
review of a project. The Section further directs the lead agencies to 
establish a schedule for completion of a study and lays out financial 
penalties to the Interior Secretary if timelines are not met.

    Section 6 directs the Interior Secretary to develop and submit a 
report to the relevant committees in Congress that identifies project 
reports, proposed projects and proposed modifications to studies and 
Federal and non-Federal cost estimates for all three.

    Section 7 identifies various sections of the WIIN Act (P.L. 114-
322) that are excluded from the process established in this bill.

    Section 8 contains a list of projects that the Secretary has 
identified are authorized to be carried out in accordance with this 
section. This is similar to the feasibility studies listed in Section 
7002 of P.L. 113-121, which authorized construction of projects by 
Congress. Two of these projects--the Yakima River Basin Enhancement 
Project (WASHINGTON) and the Shasta Lake Water Resources Investigation 
(CALIFORNIA) have long been championed by our organization.

    Section 9 establishes a process to offset the Federal costs of 
projects listed in Section 8.

    The Act would insert stronger accountability into Reclamation's 
surface storage study process, enhance transparency associated with 
interim and final storage project studies and engage local 
stakeholders. All of these actions would improve the status quo, in our 
view.
                 suggestions to improve the legislation
    We do have some very minor, specific suggestions that we believe 
would improve the current bill, as discussed in the following sections.
1. Additional Transparency
    We have consistently advocated for provisions in bills of this sort 
that require the Secretary of the Interior to submit to the appropriate 
congressional committees an estimate, to the extent practicable, of the 
Federal, non-Federal and total costs of proposed projects and a 
recommendation of the level of funding required in each fiscal year to 
complete the project on the most expedited basis. Anything that would 
encourage Reclamation to address the cost issues would be very helpful 
in moving these projects forward and determining Reclamation's capacity 
to execute on favorable reports. It appears that Section 9 of the bill 
provides a mechanism to ensure accountability and transparency. 
However, we have questions about this section, and we'll continue to 
talk to Reclamation and committee staff about our concerns, and urge 
that those parties continue to work with each other on moving forward.
2. Ability to ``opt-out''
    This bill should also provide an ``opt-out'' provision that would 
allow local project sponsors to proceed on a project implementation 
path that has historically provided successful outcomes with another 
Federal agency in the lead role. Meeting the challenge of expanding and 
modernizing the West's aging water infrastructure will require highly 
qualified professionals serving in both the public and private sectors. 
Very rarely are there ``one-size-fits-all'' templates that apply to 
management of western water resources challenges.
    In many cases, local water agencies have long-time relationships 
with local and regional Reclamation engineers and managers that have 
led to successfully completed projects. Reclamation staff members from 
regional and area offices can play a key role in helping to find the 
right path to make multi-agency processes and projects work. There are 
other models in the West where successful projects have been completed 
with Reclamation functioning as the lead agency. In other cases, local 
entities have developed close working relationships with other Federal 
water agencies such as the Army Corps of Engineers. In these cases, 
local entities should be able to continue to work with the Federal 
agency they successfully worked with in the past for projects of this 
nature.
    To cover this range of possibilities, including an ``opt-out'' 
amendment in the proposed bill provides flexibility for local project 
sponsors to either (1) engage with Reclamation in the facilitated 
permitting process articulated in this bill; or (2) opt-out, and 
proceed on a project implementation path that has historically provided 
successful outcomes with another Federal agency such as the Army Corps 
in the lead role.
                               conclusion
    The Family Farm Alliance supports H.R. 4419 and looks forward to 
continuing to work with this Committee, the Congress and other 
interested parties to build a consensus for improving the Federal 
regulatory and permitting process for new water projects. A major 
reason the Alliance continues to push for improved and expanded water 
storage and conveyance infrastructure is not to support continued 
expansion of agricultural water demand (which is not currently 
happening in most places), but to help mitigate for the water that has 
been reallocated away from agriculture toward growing urban, power, 
environmental and recreational demands in recent decades. If we don't 
find a way to restore water supply reliability for western irrigated 
agriculture through a combination of new infrastructure, other supply 
enhancement efforts and demand management--our country's ability to 
feed and clothe itself and the world will be jeopardized.
    This bill takes an important step toward addressing potential 
barriers to allowing the Federal Government to again be a partner with 
local and state entities in addressing these important water supply 
issues.

    Thank you again for this opportunity to testify before the 
Subcommittee, and I stand ready to answer any questions you may have.

                                 ______
                                 

    Questions Submitted for the Record by Rep. Jody Hice to Patrick 
                O'Toole, President, Family Farm Alliance

Mr. O'Toole did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

    Question 1. Mr. O'Toole, can you describe the economic and jobs 
impacts out West if the Bureau of Reclamation is not endowed with a 
similar process to bring aging water infrastructure into the 21st 
century? (Loss of agriculture jobs, dam operators, any industry 
depending on a reliable water supply . . .)

    Question 2. Mr. O'Toole, I am concerned when I hear from my 
colleagues out West that shovel-ready projects are stalled by seemingly 
endless studies. As you testified, Mr. O'Toole, (. . . sometimes [the 
existing] process is used as a barrier to the planning, design and 
construction of new water storage projects.'' We've seen in Georgia, 
how delays in construction can increase project costs exponentially. 
Are the provisions in the bill that streamline the feasibility study 
process necessary, or is the ability simply to authorize new projects 
sufficient? (Streamlining provisions allow us to make feasible projects 
a reality . . .)

    Question 3. Mr. O'Toole, H.R. 4419 would certainly increase water 
supply for human needs as we can begin fixing our degrading water 
infrastructure. Do also you see broader environmental benefits to this 
increased water supply? (Yes, more water is good for people and species 
. . .)

                                 ______
                                 

    Mr. Lamborn. Thank you for being here, both to you and to 
your grandson. And thank you all for your testimony.
    At this point, we will begin our questions for witnesses. 
To allow all of our Members to participate, and to ensure that 
we can hear from all of our witnesses today, under Committee 
Rule 3(d), Members are limited to 5 minutes for their 
questions.
    I now recognize myself for 5 minutes. First, a statement, 
and then I am going to ask something of Mr. O'Toole.
    One of the things we hear over and over again in this 
Subcommittee is that regulatory hurdles are negatively 
impacting our Nation's infrastructure. In June, the House 
passed H.R. 1873, sponsored by our member Mr. LaMalfa--with 300 
votes in affirmative, I must add--in order to address delays 
associated with Federal agency approvals for the removal of 
dangerous trees on Federal lands that can and have fallen on 
electricity transmission lines and cause wildfires and 
blackouts.
    We also hear stories about water users wishing to replace 
eroding concrete from a canal, but cannot because the 
concrete's age brings it under the scope of the National 
Historic Preservation Act.
    Today, we are talking about regulatory hurdles associated 
with never-ending studies and environmental reviews that are 
stifling the construction of new water projects.
    Mr. O'Toole, what is the effect of the current feasibility 
study process for potential future water projects?
    Mr. O'Toole. Mr. Chairman, in my experience, it was that 
process that became so untenable that kept people from going 
forward, and it will continue to.
    When you think of it from the state's perspective--and in 
Wyoming we have this philosophy that came in the 1980s that 
said non-renewables will fund renewables, so taxes on oil, gas, 
coal, uranium funded the water development fund that we are 
using. In Colorado, they have a different technique. But every 
year that you don't do a project, you add 10 or 15 percent to 
the cost of that project.
    So, it is so important that we have an assurance that the 
projects are going to go forward, and people will spend the 
money to do them, because what we know is we are losing that 
ability to regulate our greatest resource of water.
    Mr. Lamborn. OK, thank you.
    Mr. Mikkelsen, in your testimony you identify a number of 
steps that the Administration and your department are taking in 
order to spur infrastructure development. Can you please 
explain some of the steps your agency is taking to tackle some 
of the inefficiencies in getting new water projects built, and 
how this bill could help further those efforts?
    Mr. Mikkelsen. Thank you, Mr. Chairman. Under Secretarial 
Order 3355, as noted, we are in the process of limiting the 
small projects to a 150 page document, and the larger projects 
to 300 page documents with 1-year timelines. We are also in the 
process of evaluating other options and opportunities that we 
have within our internal processes to speed that up.
    We are making sure that our notices of intent reflect the 
Secretarial Order. And I would note, simply as an example of 
personal past experience, where we engaged in an EIS for a 
period of about 5 or 6 years, and to the tune of about 800 or 
900 pages. Finally, the contractor came to us and said, ``We 
really can't figure out how to continue to make this into an 
EIS. It would be a lot better if we actually did an EA and 
issued a FONSI.'' That took another year and a half, so I will 
offer that up as an example.
    Mr. Lamborn. Thank you.
    Mr. Eberhart, those who oppose new surface storage projects 
claim that storage will adversely affect the environment. Can 
water storage be beneficial to the environment?
    Mr. Eberhart. Thank you, Mr. Chairman. What we have found 
in the Yakima Basin is that we are dependent on snowpack to 
have a consistent supply of water for agriculture, fish, and 
wildlife.
    We had a year in 2015 when we had normal precipitation in 
the winter, and it came as rain, it did not come as snow. What 
we have found in our collaborative process in the Yakima is 
that we are going to have to build new surface storage. Not 
only does it provide the certainty for agriculture supplies, 
municipal supplies, industrial supplies, but we are building 
storage, surface storage, for fish and for wildlife.
    In order to make up for that lack of snowpack, we have 
found ways and places that we can build reservoirs that 
actually provide the supply and make it available to do what 
that snowpack would have been doing, historically, but is 
becoming less frequent for us now.
    So, yes, storage for fish, that is what we are building.
    Mr. Lamborn. I appreciate that. I now recognize the 
gentleman from California, Mr. Huffman, for his questions.
    Mr. Huffman. Thank you, Mr. Chairman, and thanks to all the 
witnesses.
    Mr. O'Toole, I think your grandson is such a good-looking 
young man, I am not going to ask you any hard questions. How is 
that?
    But you did hit upon the issue of collaboration, and that 
does get me thinking a little bit. I do want to ask some of the 
witnesses about that, because part of this bill on streamlining 
for new surface storage projects is controversial and has been 
conjoined with the Yakima bill that Senator Cantwell has worked 
on for many, many years.
    Mr. Mikkelsen, I would like to start with you. I know that 
that is probably the kind of multi-stakeholder collaborative 
problem-solving that you like to see. I know it did not include 
everyone in the environmental and fishing community. There were 
divisions, but it included some groups that came along, made 
compromises, worked with tribes and water users and others. And 
over a long period of time, through a very difficult process, 
they came to a consensus that was then going to be taken to 
Congress. Senator Cantwell has worked hard to introduce that 
bill in the Senate.
    And here we are. I assume that is the kind of collaboration 
you like to see in the water world.
    Mr. Mikkelsen. Yes, sir. That is the kind of collaboration 
that I have tried to promote during my career.
    Mr. Huffman. And Mr. Eberhart, I assume you too think that 
is the way to go.
    Mr. Eberhart. Yes, the collaborative process is how we are 
going to successfully solve water problems, not only in the 
Yakima, but in the Columbia River system and other places.
    Mr. Huffman. We want more of that hard work. It is not 
easy.
    So, here is my question. When that difficult consensus has 
come together over such a long period of time--and Senator 
Cantwell has brought it along so carefully--and then it is 
hijacked and conjoined with a very controversial bill that many 
of those groups that were part of the collaboration are forced 
to oppose, what does that do to collaboration on difficult 
water projects?
    Mr. Mikkelsen, do you think this is a good thing for those 
who made those painful compromises, and for others who would 
consider getting involved in these difficult collaborations? Do 
you think this is the way to go?
    Mr. Mikkelsen. I don't believe that this should in any way 
lessen collaboration. I think it may actually encourage 
collaboration going forward, in that the parties will 
understand that there are time limits that they need to really 
sit down and talk these things through.
    Mr. Huffman. Watching their bill get conjoined with a bill 
that--for example, I see fishing groups that supported the 
Yakima deal, but are now forced to oppose this bill. Do you 
think that watching their bill, Senator Cantwell's bill, get 
hijacked to this other thing that they oppose, that that will 
encourage collaboration? Seriously?
    Mr. Mikkelsen. It has been my experience in conflict 
resolution that a little bit of, frankly, deadline or pressure 
can always help the parties.
    Mr. Huffman. This was not a deadline that any of them could 
control. The reason Senator Cantwell's bill has not passed has 
nothing to do with their good collaboration. In fact, I guess I 
would just close on this point.
    Mr. Eberhart, wouldn't it be better if the Yakima bill were 
before this Subcommittee as a stand-alone, so that that entire 
consensus, all those stakeholders that worked through the 
process, could be here together, shoulder to shoulder, telling 
us what a good bill it is, instead of some of them opposing it?
    Mr. Eberhart. Thank you, Mr. Huffman. Our committee 
appreciates the fact that Congressman Newhouse and Congressman 
Reichert have worked so hard to find a vehicle for us, for the 
Yakima to be----
    Mr. Huffman. Well, that is the best euphemism I have seen.
    Mr. Eberhart. We look forward to working with the Committee 
to get it acceptable.
    Mr. Huffman. Very diplomatically stated. I applaud it. But 
I suspect you would prefer this bill as a stand-alone, as well. 
And, unfortunately, it is here in a very different form, 
against the wishes of Senator Cantwell, who I have spoken to, 
and who I know is disappointed to see it proceed down this 
path.
    Mr. Gudes, the groups you represent were divided to some 
degree, I think, on the Yakima deal. Do you think this is a 
good thing for collaborative problem solving, or a bad thing?
    Mr. Gudes. In terms of the environmental streamlining, or--
--
    Mr. Huffman. Taking a fragile consensus and conjoining it 
with a bill that many of your groups oppose. Is that going to 
promote more collaboration or less?
    Mr. Gudes. I am sure it depends where our people sit on the 
issue. But I do think it is congressional decision, it is the 
Congress' decision about items. But I am sure that our members 
up in Washington would prefer that it be a separate issue, 
sure.
    Mr. Huffman. I just have a few seconds. As we contemplate 
lowering environmental standards for new dam projects, are 
there lessons from the 20th century dams that were built 
without any environmental review that should inform how we 
approach this?
    Mr. Gudes. Yes, I think that looking back at all the water 
projects in the United States--and there have been a lot of 
positive outcomes from them--one of the things that has not 
been positive is the effect on fisheries. And had there been an 
ability, a NEPA-type ability, long before 1970, there would 
have been a better voice for those communities, whether for 
Native Americans or for sport fishermen or commercial 
fishermen.
    Mr. Huffman. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Lamborn. I now recognize Representative McClintock.
    Mr. McClintock. Thank you.
    Mr. Gudes, what is your organization's position on salmon 
hatcheries? Do you think we need more of them, or not?
    Mr. Gudes. I would say most of our members are pretty 
supportive of hatcheries in most locations I know of. In fact, 
we recently thanked the Department of the Interior 
appropriations bill for restoring funding for hatcheries, all 
sorts of hatcheries.
    Mr. McClintock. Good point. I know Mr. LaMalfa, since this 
is now in his district, is going to be asking about the Klamath 
Dams.
    But the Iron Gate Dam supports the Iron Gate fish hatchery. 
They want to tear it down because of a ``catastrophic decline'' 
in salmon in the river there. Interestingly, though, the Iron 
Gate hatchery produces 5 million salmon smolts a year. 
Seventeen thousand return annually as fully grown adults to 
spawn. When that dam is removed, the fish hatchery ceases to 
function and we have a catastrophic decline in salmon. Is that 
a problem for your folks?
    Mr. Gudes. I am, frankly, not familiar with the specifics 
of it. It may not be appropriate for me to ask you a question, 
but I don't know why the hatchery would have to disappear.
    Mr. McClintock. Because of the cold water that the dam 
retains.
    Mr. Gudes. Well, our position probably would be that there 
should be mitigation of additional hatchery fish put into other 
hatcheries in California.
    Mr. McClintock. Or maybe just leave the hatchery and the 
dam that supports it alone.
    Mr. Mikkelsen, how much do environmental studies add to the 
cost of an average water project? Have you seen any studies on 
that subject?
    Mr. Mikkelsen. I am sorry, sir, could you repeat that 
question?
    Mr. McClintock. How much do environmental studies add to 
the cost of an average water project?
    Mr. Mikkelsen. That is totally dependent on the complexity 
of the project. For instance, one of the examples, or the 
example that I used just a few minutes ago, we spent maybe 
somewhere between, it has been a while, but $3 and $5 million 
to conduct an EIS that was ultimately turned into an EA.
    Mr. McClintock. Right. I heard that testimony. The example 
I use is in my district, it is the Sugar Pine Reservoir that 
serves the little community of Foresthill, built with an 18-
foot spillway, but no spillway gate. They did not need the 
extra water at the time; they do now.
    A spillway gate is going to cost them $2 million. But then 
they have to add at least $1 million of environmental studies, 
at least $2 million for environmental mitigation, and God knows 
how many years in studies. Is that typical of the hurdles that 
water projects now have to go through?
    Mr. Mikkelsen. I would say that it is not atypical, because 
we have situations where the studies are actually costing more 
than the project.
    Mr. McClintock. What do you suspect the West is going to 
look like in 20 years if no new water projects are built or 
expanded?
    Mr. Mikkelsen. I am sorry, but I am having a hard time 
hearing you.
    Mr. McClintock. What is the West going to look like in 20 
years, if we don't start building new water storage facilities 
again?
    Mr. Mikkelsen. Thank you for that question, Congressman. I 
would note, in spending a considerable amount of time in 
California this year, that while we support conservation and 
all kinds of conservation measures, conservation is not going 
to get California, in particular, to 50 million people. We need 
storage projects in California.
    Mr. McClintock. And are we going to have them under the 
current structure of law?
    Mr. Mikkelsen. We are engaged in doing feasibility studies, 
in particular at Sites, Temperance Flat, San Joaquin----
    Mr. McClintock. Yes, well, how long has Sites been studied?
    Mr. Mikkelsen. Oh, my goodness. We are probably going on 7 
to 10 years right now.
    Mr. McClintock. And how about Temperance Flat?
    Mr. Mikkelsen. At least that long, and maybe 14 years, yes.
    Mr. McClintock. And isn't that the whole point?
    Mr. Mikkelsen. Yes.
    Mr. McClintock. Isn't that because the laws that we passed 
have now made the construction of new dams both cost-
prohibitive and endlessly time consuming?
    Mr. Mikkelsen. Particularly endlessly time consuming.
    Mr. McClintock. And isn't this bill specifically designed 
to address these concerns?
    Mr. Mikkelsen. I would say that it would go a long way 
toward addressing that, along with the actions of the 
Administration, both from the President and the Secretary.
    Mr. McClintock. Thank you. I yield back.
    Mr. Lamborn. Representative Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Thanks, all of you----
    Mr. Lamborn. Excuse me, do I have that in the right order? 
OK.
    Mr. Beyer. OK, great. Thank you all for being with us.
    Mr. O'Toole, thank you for bringing your grandson, thank 
you for, what is it, 140 years or something on the family 
ranch?
    Mr. O'Toole. Pretty close.
    Mr. Beyer. And I want to thank you, even though you are 
here testifying for this legislation, for acknowledging that 
climate change is at least a major part of why we have to be 
concerned about water. I think this is implicit in Congressman 
Newhouse's testimony and Mr. Eberhart's, also.
    It is not up to you, but I plead with my friends on the 
Republican side here that if we can all acknowledge that 
climate change is real, perhaps we can work more closely 
together to find what it is really going to mean, and how we 
can best address it together, rather than pretending that it is 
not real. Because, in fact, this morning we were pretending 
that it was not real in this room. This afternoon we are trying 
to find constructive ways to provide you with the water that 
you need to ranch and to farm.
    By the way, thanks also for running a family farm. We need 
many more family farms in America. And we should all be 
concerned about continuing to strengthen them in any way we 
can.
    Mr. Mikkelsen, one of the things you wrote that was 
striking, and I am going to quote you. It says, ``The cost of 
preparing environmental review documentation, surpassing the 
cost of a proposed project.'' I am going to ask our staff to 
formally request that you provide a written documentation for 
that. If that is true, that is damning, that somebody could 
actually spend more on our environmental document provision 
than the cost of the dam itself. But it sounds perhaps like an 
overstatement.
    Mr. Gudes, what is wrong with the 3-year deadline and a $3 
million cap? I know one of the things that frustrates everybody 
in business is how long it can take for the Federal Government 
to react for any given kind of project. Not just Federal 
Government, state and local, too. But we are talking Federal 
here.
    So, why is 3 years too short, or why is $3 million too 
little?
    Mr. Gudes. I think it would have the specifics to do with 
the project in question. If it is a large-scale project, it may 
be too artificially short, in terms of committees, different 
agencies, trying to bring in science or studies that go 
forward.
    The provision that I think has changed in this bill is 
extending that short time frame to Bureau of Reclamation 
projects. Our view would be that those are water projects that 
affect fishing, and we don't know if every issue that our 
community would have would be covered within that time frame, 
or that cost cap.
    Mr. Beyer. Mr. Mikkelsen, you are in charge of this. Is 
there any reason that you would take or should take more than 3 
years, or more than $3 million to analyze a project?
    Mr. Mikkelsen. With the Secretarial Order that was issued 
by the Department of the Interior recently, by the Secretary, 
we believe that the vast majority of projects should come in 
actually under 3 years and under that dollar limit.
    Mr. Beyer. Thank you.
    Mr. O'Toole, you had written that current procedures 
dictate that Federal agencies formulate another list of project 
alternatives, which the applicant must assess, comparing 
potential impacts with the preferred alternative. Some of these 
may conflict with state law, or are not implementable in the 
first place.
    Did you have personal experience with this?
    Mr. O'Toole. Yes, sir. That is exactly what happened in the 
process.
    Mr. Beyer. But can you tell us about it.
    Mr. O'Toole. Well, let me tell you about the current one. 
We are looking at a small reservoir higher in the system that 
will help our entire system. In one agency, the Corps of 
Engineers, they said, ``Oh, this is such an easy project, it 
could be an EA.'' Another agency that will be commenting said, 
``Shouldn't we be talking whether we have a dam or not?''
    I mean that is the kind of inconsistency of approach from 
the different agencies that very much is my personal 
experience, and why this bill and this theory of going through 
the whole process, but not going through it over and over 
again, is so important.
    Mr. Beyer. Interesting.
    Mr. Gudes, clearly, different issues--salmon coming out of 
the California rivers, and trying to provide necessary water in 
Wyoming and Colorado. It has been pointed out a number of times 
that we gave the Army Corps of Engineers this expedited process 
a year or two ago, and now we are trying to extend it. What is 
your objection to extending it, if it seems to be working for 
the Army Corps?
    Or did we vote wrong when we gave the Army Corps that 
ability?
    Mr. Gudes. That point I made before is on water projects, 
as it affects salmon fisheries. It may be that within a 
specific instance, that the 3 years works, or the cost cap 
works. It may well be that it is not. These are much more 
complex projects, so we would be concerned.
    I was sitting here, thinking about it--it is sort of like 
when somebody talks about tort reform. It sounds good, but if 
you are the person who cannot come into court with your case, 
it is not good.
    Mr. Beyer. Very quickly, your reading was that the 
Secretary of the Interior would be able to limit the kind of 
data that could be used to make a determination?
    Mr. Gudes. That is our people's reading, take the case of 
NOAA science, which is well over half the science having to do 
with salmon, that their science would not necessarily be 
permitted to be brought in. That is correct. That is our 
reading of it.
    Mr. Beyer. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Lamborn. I recognize yet another Member from the great 
state of California, Representative LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman, and I thank the 
panelists for being here today, and also to Mr. Newhouse for 
sponsoring this legislation.
    It will have great impact on future water storage projects, 
especially in my home state of California, which we are still 
in dire need of reliable surface storage for a growing 
population. And, having suffered a 5-year drought until very 
recently, we have seen what that looks like.
    So, these projects would, obviously, give us stored water, 
low cost, renewable hydro-electric power, as these mandates for 
renewable power go up to 50 percent before too much longer, it 
seems. Very needed flood control, recreation, and as well as 
environmental water, which our friends in the fishing industry 
would like to see available.
    Again, we talked about Sites Reservoir quite a bit here 
today. It is very feasible. A particular biologist I was out on 
a trip with years ago said that if we cannot build it 
environmentally here, we cannot build one anywhere. So, it may 
have been studied for a few years recently, but it has been 
kicked around for several decades, and the threat of 
environmental law is what really impedes that. We have a bond 
in California that was passed, and the dollars are ready to go. 
We need to get the project rolling.
    When we are talking about expediting the building of water 
infrastructure--I want to come back to Mr. Mikkelsen. And when 
we are talking about removing that infrastructure--again, a 
very, very important thing to me and my district--when we are 
talking about the Klamath Dams, Mr. Mikkelsen, I trust that you 
and Secretary Zinke agree that dam removal policy is not the 
policy of the Trump administration.
    So, I would like to have--once again, you urged to withdraw 
Interior as a signatory of the Klamath Hydroelectric Settlement 
Agreement. The stated purpose of the agreement is dam removal, 
which requires signatories, including Interior and, thusly, the 
Federal Government to intervene on behalf of dam removal if the 
project is sued, which is very likely to happen, under Section 
2.1 and 2.3 in the KHSA. This requirement can create a 
situation in which communities locally sued to protect water 
supplies or the interest, and yet the Federal Government will 
be required to fight against those communities.
    So, I would like to ask. Has Interior considered leaving 
the agreement to make it clear that this Administration does 
not support dam removal as a policy. Mr. Mikkelsen?
    Mr. Mikkelsen. Thank you, Congressman, for raising that 
issue, and giving the complexity of the provisions of the bill 
before the Subcommittee today. I did not come prepared to 
provide a substantive response to other topics.
    But for the record, the Department of the Interior has no 
action or decision process being considered in the Klamath Dam 
removal scenario. That action is being considered by the 
Federal Energy Regulatory Commission, and I would refer you to 
that agency, and also note that the 2016 amendments to the 
Klamath Hydro Settlement Act passed by Congress removed 
Department of the Interior from that dam removal process.
    Mr. LaMalfa. You mentioned frequent visits to California. 
And we have noted that you have visited the area very 
frequently, in order to rally support for what has been termed 
the inevitable removal by yours and some of your 
representatives up there. And many of us think it is not 
inevitable yet. The science does not back that up.
    I will leave it at that for today, but I would like to have 
that question answered, if you would get back to my office, 
please. Has Interior indeed considered leaving this agreement 
so that the Administration is not painted as being supportive 
of removing dams at a time when we are talking--and you are 
supporting, gladly so, I appreciate it--the expedition of 
building water storage projects. I will leave it at that for 
now, sir, and I would appreciate an answer back.
    Mr. Gudes, when I look at what the benefits are of water 
storage, Shasta Dam and Lake Oroville are both in my district, 
and you have approximately 7.5 million acre-feet capable of 
being stored in those two projects, which is a tremendous 
amount, and California having suffered 5 years of drought, do 
you not acknowledge that the benefits of those projects there 
making water available, especially the third, fourth, and fifth 
year, when a lot of fish, their life cycle is 3 years, that you 
would have the luxury of being able to have cold water, where 
you would not have that without that dam there? Aren't there 
positive benefits to these storage projects that you----
    Mr. Gudes. There clearly are positive storage benefits. The 
issue is on balance. What has it been toward salmon life cycle 
and the number of salmon? In total, I stand by what I said 
before, that, in general, they have not been positive.
    But you are right, cold water, especially at the right time 
that the different runs of salmon need it, having cold water is 
one thing. Having it put into rivers at the right time--for 
example, with the winter chinook--is what makes all the 
difference. That is correct.
    If the dams were not there, would there be adequate water 
in the rivers for those runs? Yes. The habitat would have been 
better, there would be more salmon. But I agree there are other 
aspects to it, you are right.
    Mr. LaMalfa. Not during the drought. I will yield back, Mr. 
Chairman.
    Mr. Lamborn. Thank you. I now recognize Delegate Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
afternoon, everyone.
    Mr. Mikkelsen, since the Reclamation Act of 1902 was signed 
into law, just between 1902 and 1907, that 5-year period, 
Reclamation began about 30 projects in western states, and 
subsequently projects like the Central Valley Project in 
California, Colorado, Big Thompson project in Colorado and the 
Columbian Basin project in Washington.
    In those three projects, say one project, how much do you 
think it costs to do the study in U.S. money? I mean, if NEPA 
were to be presented.
    [No response.]
    Mr. Sablan. Or let me more directly ask you this. If a 
project was being pursued, or was being developed, and if a 
study was being done for a new water project, and say the 3 
years comes up, and say the cost of $3 million is reached. 
During the study, what happens? Is the project just approved, 
even though the study is not complete?
    Mr. Mikkelsen. In the Department of the Interior, under 
Secretarial Order 3355, the assistant secretaries have 
authority to waive requirements or issue waivers if they are 
necessary.
    Mr. Sablan. No, there is a requirement that all studies for 
new projects be completed within 3 years at a cost of no more 
than $3 million. So, if a study is taking 3 years and 2 months, 
or if it costs $3.1 million, does it stop at $3 million, or 3 
years, even though it is not completed?
    Mr. Mikkelsen. I don't believe anybody's intention is to 
stop a project 1 month before its completion, or $100,000 
before its completion, sir.
    Mr. Sablan. Yes, why do the study in the first place? It 
doesn't make sense. It is just what I am trying to tell myself. 
I am trying to make myself understand.
    I yield my time to Mr. Huffman, Mr. Chairman. Thank you.
    Mr. Huffman. I thank Mr. Sablan.
    Mr. Mikkelsen, on the Klamath question, my California 
colleague was inviting you to take a certain position on 
Klamath Dam removal, which is another one of those multi-year, 
multi-stakeholder collaborative success stories.
    As you consider, and I am glad you did not take a position 
today, but as you consider responding to my colleague, I will 
remind you to also consider--and I am sure you know this--these 
are not even Bureau of Reclamation dams. These are dams owned 
by a private company that wants to get rid of them, that has 
raised funds from its ratepayers to do so. These projects are 
located in two states who have both gone on record supporting 
the removal of these dams, and raised hundreds of millions of 
dollars to move that process forward.
    And taking a position, notwithstanding all those facts, and 
notwithstanding your tribal trust responsibilities downstream, 
which would also have to be part of the consideration, taking a 
position in opposition to this somehow would certainly flout 
any notion of states' rights, when both states want to do this, 
and certainly flout any notion of private property rights, when 
the owner of this private property wants to do that.
    So, I am sure you will get to the right place on this 
straightforward question, but I wanted to put that on the 
record.
    It has also been suggested, as it so often is, that Federal 
environmental laws are the reasons that projects like Sites and 
Temperance Flat have been studied forever, and yet have not yet 
been built. There is a lot more to it than that.
    In the case of Sites, this project has been re-imagined and 
re-invested many times in recent years, in large part because 
the state funding necessary to move it forward has not been 
there. The recent passage of a state water bond requires public 
benefits for any public dollars to go to a project like this.
    And they still have not decided. Is this a fish project? Is 
it a flood project? Is it a water project? As they continue to 
re-imagine this in order to try to qualify for the funding, it 
has not been the environmental studies holding it up, it has 
been dollars.
    The same could be said of Temperance Flat, which was 
considered decades ago and rejected long before there was even 
a NEPA, and continues to be rejected. It is the Rasputin of dam 
projects. It has never made sense, it never will, and yet it 
somehow stays alive, at least here in this Committee.
    I yield back.
    Mr. Lamborn. OK. I now recognize Representative Graves.
    Mr. Graves. Thank you, Mr. Chairman. Mr. Chairman, I have a 
strong obligation to make sure that people's policy is 
consistent on this Committee, and so I want to take advantage 
here.
    Mr. Gudes, I want to make sure I understand this. The 
Federal Government has taken action that is causing a detriment 
to ecological productivity and having an impact on access to 
recreational fisheries. Is that correct?
    Mr. Gudes. Over years, yes.
    Mr. Graves. Sure. And----
    Mr. Gudes. And other benefits that I think Congressman 
LaMalfa put out. But relative to fisheries----
    Mr. Graves. This is going--you see that? You see this is 
going----
    Mr. Gudes. Relative to fisheries----
    Mr. Graves. And you are concerned in your testimony that 
the Federal Government is trying to--excuse me, under the 
legislation--that the bill limits the access to accurate 
information to help inform appropriate decision. That is what 
your testimony says. Is that accurate?
    Mr. Gudes. Yes.
    Mr. Graves. I mean, whether it is crabs and you have one 
position, red snapper, another position, dams you have another 
position, red snapper, another position, it is fascinating.
    Look, I just want to be helpful to you, that is all. I am 
trying----
    Mr. Huffman. Will the gentleman entertain a----
    Mr. Graves. I am trying to be helpful. And policy 
consistency----
    Mr. Huffman. I think, on that same note, if the gentleman--
--
    Mr. Graves. I would be happy to yield, absolutely.
    Mr. Huffman. It seems like we must have great consensus 
between you and me on supporting Klamath Dam removal, then, 
because it is strongly advocated by the states of California 
and Oregon, and it is certainly in keeping with the gentleman's 
position on red snapper.
    Mr. Graves. Look, I want to be clear on this.
    I am struggling, I have paddled the Klamath a number of 
times, and I enjoy it. I had some great kayaking trips on the 
Klamath. But I want to make sure I understand. On the one hand, 
there have been efforts by this side to remove money for a 
coastal restoration in Louisiana that has been caused by the 
Federal Government. But in this case you want the Federal 
Government to step in and remove structures and help restore 
the environment.
    I am trying to help out with policy consistency. That is my 
biggest concern, sir. I just want to make sure that you are 
consistent with policy.
    Mr. Huffman. I think the gentleman is confused about 
restoration dollars and our position on them. We support all 
sorts of wetland restoration and mitigation. I bet we can work 
together on all kinds of good things.
    Mr. Graves. When people over here proposed amendments to 
take our coastal restoration dollars away, you voted for it.
    So, OK, I just want to----
    Mr. Huffman. Mr. Gudes, you are collateral----
    Mr. Graves. I just want to make sure I understand what is 
going on. I am worried about policy consistency.
    Mr. Gudes. I just want to point out we are consistent. We 
are for the fish.
    Mr. Graves. You are consistent.
    Mr. Gudes. And relative----
    Mr. Graves. You are consistent. That is right, Mr. Gudes, 
thank you.
    Mr. Gudes. And relative to coastal Louisiana, our members 
not only support restoration, they actually fund it, as you 
know, through the excise taxes.
    Mr. Graves. I do. And you have been consistent in policy, 
and I appreciate that very much. It has been great.
    With that, I am actually going to yield back. I am done.
    Mr. Lamborn. I want to thank the witnesses for their 
valuable testimony. This has been an interesting, educational, 
and important hearing. Thank you for coming.
    Mr. LaMalfa. Do we have another round?
    Mr. Graves. If I can yield my----
    Mr. Lamborn. No, but I think if you can catch them, they 
may be able to stay here individually.
    Mr. LaMalfa. It is funnier on record.
    [Laughter.]
    Mr. Lamborn. Members of the Subcommittee may have--in fact, 
I think do have--additional questions for you, and I would ask 
that if they give you those in writing, that you respond in 
writing.
    Under Committee Rule 3(o), members of the Committee must 
submit questions to the Clerk within 3 business days, and we 
will hold the hearing record open for 10 days for those 
responses.
    If there is no further business, without objection the 
Subcommittee stands adjourned.

    [Whereupon, at 3:41 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Napolitano Submission

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Patricia Sinicropi, Executive 
            Director, WateReuse Association commenting on H.R. 
            4419, dated December 8, 2017.

                                 [all]


</pre></body></html>
